<html>
<title> - DISINFORMATION: A PRIMER IN RUSSIAN ACTIVE MEASURES AND INFLUENCE CAMPAIGNS PANEL I</title>
<body><pre>[Senate Hearing 115-40, Part 1]
[From the U.S. Government Publishing Office]





                                                  S. Hrg. 115-40, Pt. 1

               DISINFORMATION: A PRIMER IN RUSSIAN ACTIVE
                    MEASURES AND INFLUENCE CAMPAIGNS
                                PANEL I

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, MARCH 30, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
         
         
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-362 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
        
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                                CONTENTS

                              ----------                              

                             MARCH 30, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2

                               WITNESSES

Godson, Roy, Ph.D., Emeritus Professor of Government, Georgetown 
  University.....................................................     6
    Prepared statement...........................................    10
Rumer, Eugene B., Ph.D., Senior Fellow and Director, Russia and 
  Eurasia Program, Carnegie Endowment for International Peace....    21
    Prepared statement...........................................    23
Watts, Clint, Robert A. Fox Fellow, Foreign Policy Research 
  Institute......................................................    30
    Prepared statement...........................................    33
 
                  DISINFORMATION: A PRIMER IN RUSSIAN
                ACTIVE MEASURES AND INFLUENCE CAMPAIGNS
                                PANEL I

                              ----------                              


                        THURSDAY, MARCH 30, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
Room SD-106, Dirksen Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Warner, Risch, 
Rubio, Collins, Blunt, Lankford, Cotton, Cornyn, Feinstein, 
Wyden, Heinrich, King, Manchin, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order. I 
apologize to our witnesses that we had a vote that was called 
at 10:00 and most members are in the process of making their 
way from there to here.
    This morning the committee will engage in an activity 
that's quite rare for us, an open hearing on an ongoing 
critical intelligence question: the role of Russian active 
measures past and present. As many of you know, this committee 
is conducting a thorough, independent, and nonpartisan review 
of the Russian active measures campaign conducted against the 
2016 U.S. elections.
    Some of the intelligence provided to the committee is 
extremely sensitive, which requires that most of the work be 
conducted in a secure setting to maintain the integrity of the 
information and to protect the very sensitive sources and 
methods that gave us access to that intelligence. However, the 
Vice Chairman and I understand the gravity of the issues that 
we're here reviewing and have decided that it's crucial that we 
take the rare step of discussing publicly an ongoing 
intelligence question.
    That's why we've convened this second open hearing on the 
topic of Russian active measures, and I can assure you to the 
extent possible the committee will hold additional open 
hearings on this issue.
    The American public, indeed all democratic societies, need 
to understand that malign actors are using old techniques with 
new platforms to undermine our democratic institutions.
    This hearing, entitled ``Disinformation: A Primer in 
Russian Active Measures and Influence Campaigns,'' will consist 
of two panels and will provide a foundational understanding of 
Russian active measures and information operations campaigns. 
The first panel will examine the history and characteristics of 
those campaigns. The second panel will examine the history and 
characteristics of those campaigns and the role and 
capabilities of cyber operations in support of these 
activities.
    Unfortunately, you will learn today that these efforts by 
Russia to discredit the U.S. and weaken the West are not new. 
These efforts are in fact a part of Russian, and previous 
Soviet Union, intelligence efforts. You will learn today that 
our community has been a target of Russian information warfare, 
propaganda, and cyber campaigns and still is.
    The efforts our experts will outline today continue 
unabated. The takeaway from today's hearing: We're all targets 
of a sophisticated and capable adversary and we must engage in 
a whole-of-government approach to combat Russian active 
measures.
    Today we'll receive testimony from experts who have in some 
cases worked directly to respond to active measures, who 
understand the history and the context of active measures, and 
whose significant experience and knowledge will shed new light 
on the problem and provide useful context. Doctors Godson and 
Rumer, Mr. Watts, we're grateful to you for your appearance 
here today.
    This afternoon we will reconvene and welcome witnesses who 
will discuss the technical side of the question, cyber 
operations, including computer network exploitation, social 
media, and online propaganda activities, and how they enable 
and promote Russian influence campaigns and information 
operations.
    We have a full day ahead of us and I'm confident that the 
testimony you will hear today will help you to establish a 
foundational understanding of the problem as the committee 
continues its inquiry into Russian activities.
    Finally, I'd like to commend the Vice Chairman for his 
dedication to the goals of the committee's inquiry and to the 
integrity of the process. The Vice Chairman and I realize that 
if we politicize this process our efforts will likely fail. The 
public deserves to hear the truth about possible Russian 
involvement in our elections, how they came to be involved, how 
we may have failed to prevent that involvement, what actions 
were taken in response, if any, and what we plan to do to 
ensure the integrity of future free elections at the heart of 
our democracy.
    Gentlemen, thank you again for your willingness to be here, 
and I turn to the Vice Chairman.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. I also want 
to welcome our witnesses today.
    Today's hearing is important to help understand the role 
Russia played in the 2016 presidential elections. As the U.S. 
intelligence community unanimously assessed in January of this 
year, Russia sought to hijack our democratic process, and that 
most important part of our democratic process, our presidential 
elections.
    As we'll learn today, Russia's strategy and tactics are not 
new, but their brazenness certainly was. The hearing is also 
important because it's open, as the Chairman mentioned, which 
is sometimes unusual for this committee. Due to the classified 
nature of our work, we typically work behind closed doors.
    Today's public hearing will help, I hope, the American 
public writ large understand how the Kremlin made effective use 
of its hacking skills to steal and weaponize information and 
engage in a coordinated effort to damage a particular candidate 
and to undermine public confidence in our democratic process.
    Our witnesses today will help us to understand how Russia 
deployed this deluge of disinformation in a broader attempt to 
undermine America's strength and leadership throughout the 
world.
    We simply must and we will get this right. The Chairman and 
I agree it is vitally important that we do this in as credible, 
bipartisan, and transparent manner as possible. As we said 
yesterday at our press conference, Chairman Burr and I trust 
each other and, equally important, we trust our colleagues on 
this committee, that we are going to move together and we're 
going to get to the bottom of this and do it right.
    As this hearing begins, let's take just one moment to 
review what we already know. Russia's President, Vladimir 
Putin, ordered a deliberate campaign carefully constructed to 
undermine our election. First Russia struck at our political 
institutions by electronically breaking into the headquarters 
of one of our political parties and stealing vast amounts of 
information. Russian operatives also hacked emails to steal 
personal messages and other information from individuals 
ranging from Clinton Campaign Manager John Podesta to former 
Secretary of State Colin Powell.
    This stolen information was then weaponized. We know that 
Russian intelligence used the quote-unquote Guccifer 2 persona 
and others like WikiLeaks at seemingly choreographed times that 
would cause maximum damage to one candidate.
    They did this with an unprecedented level of sophistication 
about American presidential politics that should be a line of 
inquiry for us on this committee and, candidly, while it helped 
one candidate this time, they are not favoring one party over 
another and consequently it should be a concern for all of us.
    Second, Russia continually sought to diminish and undermine 
our trust in the American media by blurring our faith in what 
is true and what is not. Russian propaganda outlets like RT and 
Sputnik successfully produced and peddled disinformation to 
American audiences in pursuit of Moscow's preferred outcome. 
This Russian propaganda on steroids was designed to poison the 
national conversation in America.
    The Russians employed thousands of paid internet trolls and 
botnets to push out disinformation and fake news at a high 
volume, focusing this material onto your Twitter and Facebook 
feeds and flooding our social media with misinformation. This 
fake news and disinformation was then hyped by the American 
media echo chamber and our own social media networks to reach 
and potentially influence millions of Americans.
    This is not innuendo or false allegations. This is not fake 
news. This is actually what happened to us. Russia continues 
these sorts of actions as we speak. Some of our close allies in 
Europe are experiencing exactly the same kind of interference 
in their political process. Germany has said that its 
parliament has been hacked. French presidential candidates 
right now have been the subject of Russian propaganda and 
disinformation. In The Netherlands, their recent election, the 
Dutch hand-counted their ballots because they feared Russian 
interference in their electoral process. Perhaps most 
critically for us, there is nothing to stop them from doing 
this all over again in 2018 for those of you who are up or in 
2020 as Americans again go back to the polls.
    In addition to what we already know, any full accounting 
must also find out what, if any, contacts, communications, or 
connections occurred between Russia and those associated with 
the campaigns themselves. I will not prejudge the outcome of 
our investigation. We are seeking to determine if there is an 
actual fire, but there is clearly a lot of smoke.
    For instance, an individual associated with the Trump 
campaign accurately predicted the release of hacked emails 
weeks before it happened. This same individual also admits to 
being in contact with Guccifer 2, the Russian intelligence 
persona responsible for these cyber operations.
    The platform of one of our two major political parties was 
mysteriously watered down in a way which promoted the interests 
of President Putin and no one seems to be able to identify who 
directed that change in the platform.
    The campaign manager of one campaign who played such a 
critical role in electing the President was forced to step down 
over his alleged ties to Russia and its associates.
    Since the election, we've seen the President's National 
Security Adviser resign and his Attorney General recuse himself 
over previously undisclosed contacts with the Russian 
government.
    And of course, in the other body on March 20th the Director 
of the FBI publicly acknowledged that the Bureau was, quote, 
``investigating the nature of any links between individuals 
associated with the Trump campaign and the Russian government 
and whether there was any coordination between the campaign and 
Russian efforts.'' End of quote.
    I want to make clear, at least for me, this investigation 
is not about whether you have a ``D'' or an ``R'' next to your 
name. It is not about relitigating last fall's election. It is 
about clearly understanding and responding to this very real 
threat. It's also, I believe, about holding Russia accountable 
for this unprecedented attack on our democracy. And it is about 
arming ourselves so we can identify and stop it when it happens 
again. And trust me, it will happen again if we don't take 
action.
    I would hope that the President is as anxious as we are to 
get to the bottom of what happened. But I have to say 
editorially that the President's recent conduct, with his wild 
and uncorroborated accusations about wiretapping and his 
inappropriate and unjustified attacks on America's hardworking 
intelligence professionals does give me grave concern.
    This committee has a heavy weight of responsibility to 
prove that we can continue to put our political labels aside to 
get us to the truth. I believe we can get there. I've seen 
firsthand--and I say this to our audience--how serious members 
on both sides of this dais have worked on this sensitive and 
critical issue.
    As the Chairman and I have said repeatedly, this 
investigation will follow the facts where they lead us. If at 
any time I believe we're not going to be able to get those 
facts--and we're working together very cooperatively to make 
sure we get the facts that we need from the intelligence 
community. We will get that done.
    Mr. Chairman, again I thank you for your commitment to the 
serious work and your commitment to keeping this bipartisan 
cooperation at least, if not all across the Hill, alive in this 
committee. Thank you very much.
    Chairman Burr. I thank the Vice Chairman.
    Members should note that they will be recognized by 
seniority for five-minute questions. We'll go as expeditiously 
as we can.
    Let me introduce our witnesses today if I may and we will 
hear from those witnesses: Dr. Roy Godson, Emeritus Professor 
of Government, Georgetown University. Dr. Godson has 
specialized in security studies and international relations at 
Georgetown University for more than four decades. Thank you for 
that.
    As a scholar, he helped pioneer intelligence studies in 
American higher education, editing the seven-volume series 
``Intelligence Requirements for the 1980s, 1990s,'' and co-
founding the Consortium for Study of Intelligence. He's 
directed, managed, and published with other scholars and 
practitioners ``Innovative Studies on Adapting American 
Security Paradigms,'' ``Intelligence Dominance Consistent with 
Rule of Law Practices,'' and ``Strategies for Preventing and 
Countering Global Organized Crime.''
    Dr. Godson has served as consultant to the United States 
Security Council, the President's Foreign Intelligence Advisory 
Board, and related agencies of the U.S. Government.
    Thank you for your service and thank you for being here.
    Dr. Rumer is a Senior Fellow and Director of the Russian 
and Eurasian Program, Carnegie Endowment for International 
Peace. Prior to joining Carnegie, Dr. Rumer served as the 
National Intelligence Officer for Russia and Eurasia at the 
U.S. National Intelligence Council from 2010 to 2014. Earlier 
he held research appointments at the National Defense 
University, the International Institute for Strategic Studies, 
and the Rand Corporation.
    He has served on the National Security Council staff and at 
the State Department, taught at Georgetown University and 
George Washington University, and published widely.
    Welcome, Dr. Rumer.
    Clint Watts. Clint Watts is a Robert Fox Fellow for the 
Foreign Policy Research Institute and a Senior Fellow at the 
Center for Cyber and Homeland Security at George Washington 
University. Clint is a consultant and researcher modeling and 
forecasting threat actor behavior and developing 
countermeasures for disrupting and defeating state and non-
state actors.
    As a consultant, Clint designs and implements customized 
training and research programs for military, intelligence, and 
law enforcement organizations at the Federal, State, and local 
levels. Clint served as a United States Army infantry officer, 
an FBI agent on a joint terrorism task force, as the executive 
officer of the Combatting Terrorism Center at West Point, and 
as a consultant to the FBI's Counterterrorism Division and 
National Security Branch.
    Clinton, welcome. Thank you for your service.
    With that, I will recognize our witnesses from my left to 
right. Dr. Godson, you are recognized.

     STATEMENT OF ROY GODSON, Ph.D., EMERITUS PROFESSOR OF 
               GOVERNMENT, GEORGETOWN UNIVERSITY

    Dr. Godson. Thank you, Mr. Chairman and Vice Chairman and 
members of the committee, for inviting me to this hearing. I'd 
like to begin with just a minute or two on the long history of 
Soviet active measures and then talk a little bit about some of 
the major advantages the Soviets and the Russians have reaped 
from their history of using this instrument. Finally, I'd like 
to come to what we have done in the past to reduce the 
effectiveness of Soviet behavior and what we might want to 
consider for the future.
    I think if one looks at the history of the last 100 years 
you're going to find that the Russians and their Soviet 
predecessors have believed that active measures is a major tool 
for their advancement. They actually believe, whatever we think 
about it, that this gives them the possibility of achieving 
influence well beyond their economic and social status and 
conditions in their country.
    I think when you look at what they say now, what they do 
now, and the way they act and practice and talk about their 
active measures, they take this subject very seriously.
    Sometimes we in the United States have been aware of this, 
but for many, many decades we did not take this subject 
seriously and they were able to take enormous advantage. I 
think today that they basically believe they can use these 
techniques rather similarly to many of the ways they did this 
in the past. I do think that they are repeating many of the 
same practices that they did in the past. Yes, there may be 
some new techniques that are being used now. In fact there are, 
and some of my colleagues on the panel and this afternoon are 
more expert on those techniques, particularly the use of the 
internet and particularly cyberspace.
    But we can more or less rest assured that the Soviets will 
be looking at other techniques and will be seeking to adapt and 
make their active measures much more productive for them in the 
future.
    Yes, the activities in the United States that you're 
particularly interested in do seem to be exceptional. We don't 
have very many other examples of where they interfered with 
election machinery and electoral apparatuses. What we do have 
are many, many examples of where the Soviets, working together, 
were able, with their allies abroad, their agents of influence 
abroad, to actually affect the elections in many, many 
countries in the 20th and early 21st centuries.
    The Soviets and their Russian successors took the view, 
take the view, that they are able to hit above their weight, 
they can fight above their weight, if they use active measures. 
They don't want to go to war. Neither of us wants to go to war. 
But they take the view that they can actually achieve a lot of 
what they want to do through their active measures. That is, 
the combination of overt and covert techniques and resources, 
overt and covert combined together in one pattern, and that 
they have the authority and the responsibility as leaders of 
the country to be able to do that. And they put this into 
practice.
    In the 1920s and 1930s they created an enormous apparatus 
in the world. Russia was a poor, weak country and yet Russia in 
the 1920s and 1930s set up whole organizations, overt and 
covert, throughout the world that were able to challenge all 
the major powers of Europe and the United States. We may not 
have realized that these organizations were being set up, but 
they were considerable, and it took a lot of effort and skill 
on their part to do this.
    In the war, the Second World War, they used this apparatus 
to be able to influence the politics of Europe after the war. 
Yes, they also used it during the war to help them, and 
sometimes us, in fighting the Nazis and the Italian fascists. 
But in a major way they were also preparing for being able to 
influence the outcome of the struggle for the balance of power 
in Europe during World War II. So while they were an ally, they 
were also planning to undermine democratic and liberal parties, 
including in the United States at that time.
    In fact, they were able to take advantage of the fact that 
we were friendly and that we were working together. Uncle Joe 
was a friend of the United States at that time, they thought, 
and they were able to use that very successfully. So as a 
result, they were nearly able to take over the balance of power 
in Western Europe. It was a closely run contest, and of course 
we're all glad that they lost. But it was a very closely run 
conflict and we did emerge successfully from it.
    In the 1980s, they were on another roll. They used their 
apparat, which built up in, as I say, the 1920s and 1930s, 
1940s, 1950s, and 1960s, to be able to achieve a great deal in 
the late 1970s and 1980s. They nearly were able to split 
Europe, split NATO in Europe, in the 1980s. They started that 
in the last year of the Carter Administration and continued 
into the Reagan years. Fortunately, we noticed this in time and 
our rearmament of NATO went ahead and it wasn't because the 
Soviets wanted it, but because we were able to outmaneuver 
them.
    The 1990s were sort of chaotic there and so their active 
measures apparatus wasn't very effective and it didn't have the 
kind of leadership that it had had before and the kind of 
leadership it has gained since Vladimir Putin came to power. 
It's maybe a little bit too soon to do an assessment of their 
effectiveness. So far, as was pointed out earlier by the 
Chairman and the Vice Chairman, we do think that they were 
effective in an important way to us, and we understand that the 
committee is going to be looking into this and studying this.
    But in any event, they have this apparatus. They have 
modernized it. They were spending billions of dollars a year 
before. They have maybe 10 to 15,000 people in this apparatus 
at least worldwide, in addition to the trolls and other kinds 
of cyber capabilities they have.
    But the Soviets are not ten feet tall----
    Chairman Burr. Dr. Godson, I'm going to interrupt you for 
just a second, just to make members aware that the second vote 
has started and it's our intent to work through this second 
vote. So I'd ask members as they feel comfortable to leave for 
the vote, come right back if you will. As soon as we get 
through the panel, we'll start questions.
    Dr. Godson, I'd just ask you to summarize as quickly as you 
can.
    Senator Feinstein. Mr. Chairman, how long is a round?
    Chairman Burr. Five-minute recognition.
    Dr. Godson. They're not ten feet tall. They have used their 
capabilities effectively, but they don't always win out.
    The United States for the first time responded in a major 
way to them in the late 1940s through the 1960s. We did in fact 
cauterize their active measures apparatus and they were not 
able to successfully use it in Western Europe and other parts 
of the world. We did some things pretty well from the 1940s to 
the 1960s.
    Unfortunately, in the 1960s the coalition between liberals 
and conservatives, the consensus between the Congress and the 
administration, started to fall apart. Then, with the 
criticisms that the intelligence community had to take in that 
time, our countermeasures started to fall apart and we were 
sort of disarming ourselves, if I can say that. So from the 
1960s through the late 1970s we did not have a very effective 
counter-active measures capability and the Russians, of course, 
took advantage of that in numerous places in the world.
    In the 1980s, though, that changed. In the late 1970s, 
1980s, it changed and we did start to do things well again. 
I'll just summarize the fact that we started to develop a 
strategic approach to countermeasures. It wasn't a bit here and 
a bit there and so on. It was actually a strategic approach, 
with warning and anticipation of active measures. We actually 
would study them so well that we were able to often anticipate 
what they were going to do with active measures and so 
therefore we could then use other measures to limit them and 
avoid the effectiveness of these active measures.
    We also started to support liberal elements abroad that we 
thought would be helpful to us in preventing Soviet active 
measures from furthering Soviet objectives in those societies.
    So we were fairly successful in the 1980s in doing this and 
in both using overt and covert methods to do this. As in other 
victories that we've had after World War I or after World War 
II, after the Cold War we thought that this wasn't such an 
important thing to be doing any more and so our activities 
waned. They didn't stop, but they waned. We had some units that 
remained in the government that were concerned with this, but 
on the whole the government actually disarmed itself.
    So although there were some in the government and outside 
the government who warned about the Soviet use of active 
measures--and I do know when looking over the website of your 
committee that some of the people in this room actually went to 
the government and asked the government to be more mindful of 
Soviet active measures starting in 2016, and presumably we 
should be mindful of it afterwards--unfortunately, the 
government did not take the warnings as seriously as it could 
have and made this known to the public in a useful fashion so 
we would not be so surprised when this took place in the--or 
appears to have taken place in 2016.
    But the Soviets could not have done this and the Russians 
could not have done this without having an active measures 
apparatus. It's visible. One can find it. One can't find 
everything about it, but we have--historically, we know that we 
can find it, we can anticipate it, and we can take a number of 
measures. So I hope you will have time to consider, maybe in 
the questioning, some of the measures we could now take to do 
that.
    Thank you.
    [The prepared statement of Dr. Godson follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Burr. Thank you, Dr. Godson.
    Dr. Rumer.

    STATEMENT OF EUGENE B. RUMER, Ph.D., SENIOR FELLOW AND 
 DIRECTOR, RUSSIA AND EURASIA PROGRAM, CARNEGIE ENDOWMENT FOR 
                      INTERNATIONAL PEACE

    Dr. Rumer. Chairman Burr, Vice Chairman Warner, 
distinguished members of the committee: I'm honored to be here 
today.
    Russian active measures and interference in our 
presidential campaign is one of the most contentious issues in 
our national conversation. I believe that Russian intelligence 
services and their proxies intervened in our election in 2016. 
I have not seen the classified evidence behind the intelligence 
community assessment published a few weeks ago. Some have 
criticized it for not sharing the evidence of Russian 
intrusions. They miss the mark. It is the totality of Russian 
efforts in plain sight to mislead, to misinform, to exaggerate, 
that is more convincing than any cyber evidence. RT, Russia 
Today Broadcast, internet trolls, fake news, and so on are an 
integral part of Russian foreign policy to date.
    We need to put this in the context of the quarter century 
since the end of the Cold War. World War II in Europe, or ``the 
Great Patriotic War,'' as Russians call it, is integral to the 
formative experience of every living Russian. The country's 
national narrative is impossible without it.
    In 1941 Hitler's armies were just outside the gates of 
Moscow. In 1945 Stalin's armies entered Berlin. That was 
Russia's greatest generation. Generations of Russians since 
then have been taught that their country was at its most secure 
then because it was protected by a buffer: the Warsaw Pact and 
the Soviet empire.
    In 1991, Russians lost that buffer, the legacy of their 
greatest generation. With their country falling apart, Russian 
leaders had no choice but to accept this loss for as long as 
Russia would remain weak. The 1990s were a terrible decade for 
Russia, but a great decade for the West. For Russian leaders 
and many regular Russians, the dominance of the West came at 
the expense of Russia's loss in the Cold War.
    But Russia would not remain weak indefinitely. Its economic 
recovery led to a return to a much more assertive posture, 
aggressive posture some would say, on the world stage. We saw 
it in the crushing of Georgia in 2008, in the annexation of 
Crimea in 2014, and we see it to the present day in the ongoing 
war in eastern Ukraine.
    For the West, Russia's return to the world stage has been 
nothing more than pure revanchism. For Russia, it is restoring 
some balance in their relationship with the West. The narrative 
of restoring the balance, correcting the injustice and the 
distortions of the 1990s, has been the essential--has been 
absolutely essential to Russian propaganda since the beginning 
of the Putin era. Those Russians who disagree are branded as 
foreign agents and enemies of the people.
    But Russia's capabilities should not be overestimated. Its 
GDP is about $1.3 trillion versus U.S. GDP of over $18 
trillion. Russian defense spending is estimated at about $65 
billion. That's little more than President Trump's proposed 
increase in U.S. defense spending for fiscal year 2018.
    The Russian military is undeniably stronger than its 
smaller and weaker neighbors. Yet the balance does not favor 
Russia when compared to NATO. A NATO-Russia war would be an act 
of mutual suicide and the Kremlin is not ready for it.
    Russian leaders have embraced a difficult toolkit--
information warfare, intimidation, espionage, economic tools, 
and so on. This toolkit is meant to make up for Russia's 
conventional shortcomings vis-a-vis the West.
    The Kremlin has a number of advantages here. The circle of 
deciders is limited to a handful of Putin associates with 
similar world views. They have considerable resources at their 
disposal, especially since most of their tools are quite cheap. 
A handful of cyber criminals costs a lot less than an armored 
brigade, but can do a lot of damage.
    Russian meddling in our presidential election most likely 
is viewed by the Kremlin as an unqualified success. The payoffs 
include, but are not limited to: one, a major distraction to 
the United States, for the United States; damage to U.S. 
leadership in the world; and perhaps most importantly, the 
demonstration effect. The Kremlin can do this to the world's 
sole remaining global superpower. Imagine how other countries 
feel.
    The differences between Russia and the United States are 
profound and will not be resolved soon. This is not a crisis, 
not something that will pass soon. It is the new normal. We 
will see Russia relying on this toolkit in the months and years 
to come, in the upcoming elections in France and in Germany 
this year, in our own future political campaigns.
    Deception and active measures have long been and will 
remain a staple of Russian dealings with the outside world for 
the foreseeable future.
    Thank you.
    [The prepared statement of Dr. Rumer follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Chairman Burr. Dr. Rumer, thank you.
    Mr. Watts.

STATEMENT OF CLINT WATTS, ROBERT A. FOX FELLOW, FOREIGN POLICY 
                       RESEARCH INSTITUTE

    Mr. Watts. Mr. Chairman, members of the committee: thank 
you for inviting me here today.
    In April 2014, Andrew Weisburd, J.M. Berger, and I noticed 
a petition on the WhiteHouse.gov website. ``Alaska Back to 
Russia'' appeared as a public campaign to give America's 
largest state back to the nation from which it was purchased. 
Satirical or nonsensical petitions appearing on the White House 
website are not out of the norm. But this petition was 
different, having gained more than 39,000 online signatures in 
a short period.
    Our examining of those signing and posting on this petition 
revealed an odd pattern. The accounts varied considerably from 
other petitions and appeared to be the work of bots. A closer 
look at those bots tied in closely with other social media 
campaigns we had observed pushing Russian propaganda months 
before. Hackers proliferated the networks and could be spotted 
among recent data breaches and website defacements. Closely 
circling those hackers were honeypot accounts, attractive-
looking women and political partisans that were trying to 
social engineer other users.
    Above all, we observed hecklers, those synchronized 
trolling accounts you see on Twitter that would attack 
political targets using similar talking patterns and points. 
Those accounts, some of which overtly support the Kremlin, 
promoted Russian foreign policy positions targeting key 
English-speaking audiences throughout Europe and North America.
    Soviet active measures strategy and tactics have been 
reborn and updated for the modern Russian regime and the 
digital age. Today Russia hopes to win the second Cold War 
through the force of politics, as opposed to the politics of 
force.
    While Russia certainly seeks to promote Western candidates 
sympathetic to their worldview and foreign policy objectives, 
winning a single election is not their end goal. Russian active 
measures hope to topple democracies through the pursuit of five 
complementary objectives:
    One, undermine citizen confidence in democratic governance;
    Two, foment and exacerbate divisive political fissures;
    Three, erode trust between citizens and elected officials 
and their institutions;
    Four, popularize Russian policy agendas within foreign 
populations;
    And five, create general distrust or confusion over 
information sources by blurring the lines between fact and 
fiction, a very pertinent issue today in our country.
    From these objectives, the Kremlin can crumble democracies 
from the inside out, achieving two key milestones: one, the 
dissolution of the European Union; and two, the breakup of 
NATO. Achieving these two victories against the West will allow 
Russia to reassert its power globally and pursue its foreign 
policy objectives bilaterally through military, diplomatic, and 
economic aggression.
    In late 2014 and throughout 2015, we watched active 
measures on nearly any disaffected U.S. audience. Whether it be 
claims of the U.S. military declaring martial law during the 
Jade Helm exercise, chaos amongst Black Lives Matter protests, 
or a standoff at the Bundy Ranch, Russia's state-sponsored RT 
and Sputnik News, characterized as white outlets, churned out 
manipulated truths, false news stories, and conspiracies. They 
generally lined up under four themes:
    One, political messages designed to tarnish democratic 
leaders and institutions;
    Two, financial propaganda, created to weaken confidence in 
financial markets and capitalist economies;
    Three, social unrest, crafted to amplify divisions amongst 
democratic populaces;
    And four, global calamity, pushed to incite fear of global 
demise, such as nuclear war or catastrophic climate change.
    From these overt Russian propaganda outlets, a wide range 
of English-speaking conspiratorial websites, which we refer to 
as gray outlets, some of which mysteriously operate from 
Eastern Europe and are curiously led by pro-Russian editors of 
unknown financing, sensationalize these conspiracies and fake 
news published by white outlets.
    American-looking social media accounts, hecklers, 
honeypots, and hackers I described earlier, working alongside 
automated bots, further amplify this Russian propaganda amongst 
unwitting Westerners.
    Through the end of 2015, the start of 2016, the Russian 
influence system began pushing themes and messages seeking to 
influence the outcome of the U.S. presidential election. 
Russia's overt media outlets and covert trolls sought to 
sideline opponents on both sides of the political spectrum with 
adversarial views toward the Kremlin. They were in full swing 
during both the Republican and Democratic primary season and 
may have helped sink the hopes of candidates more hostile to 
Russian interests long before the field narrowed. Senator 
Rubio, in my opinion you anecdotally suffered from these 
efforts.
    The final piece of Russia's modern active measures surfaced 
in the summer of 2016 as hacked materials were strategically 
leaked. The disclosures of WikiLeaks, Guccifer 2.0, and DCLeaks 
demonstrated how hacks would power the influence system Russia 
had built so successfully in the previous two years.
    As an example, on the evening of 30 July 2016 my colleagues 
and I watched as RT and Sputnik News simultaneously launched 
false stories of the U.S. air base at Incirlik, Turkey, being 
overrun by terrorists. Within minutes, pro-Russian social media 
aggregators and automated bots amplified this false news story. 
More than 4,000 tweets in the first 78 minutes after launching 
this false story going back to the active measures accounts we 
had tracked in the previous two years.
    These previously identified accounts almost simultaneously, 
appearing from difficult geographic locations and communities, 
amplified the fake news story in unison. The hashtags pushed by 
these accounts were ``nuclear,'' ``media,'' ``Trump,'' and 
``Benghazi.'' The most common words found in English-speaking 
Twitter profiles were ``God,'' ``military,'' ``Trump,'' 
``family,'' ``country,'' ``conservative,'' ``Christian,'' 
``America,'' and ``Constitution.''
    These accounts and their messages clearly sought to 
convince Americans a U.S. military base was being overrun in a 
terrorist attack. In reality, a small protest gathered outside 
the gate and the increased security at the air base sought to 
secure the arrival of the Chairman of the Joint Chiefs.
    Many of the accounts we watched push the false Incirlik 
story today focus on the elections in Europe, promoting fears 
of immigration or false claims of refugee criminality. They 
have not forgotten about the U.S., either. This past week we 
observed social media accounts discrediting Speaker of the 
House Paul Ryan, hoping to further foment unrest inside U.S. 
democratic institutions.
    The implications of Russia's new active measures model will 
be twofold. The first is what the world is witnessing today, a 
Russian challenge to democracy throughout the West. But more 
importantly, over the horizon Russia has provided any 
authoritarian dictator or predatory elite equipped with hackers 
and disrespectful of civil liberties a playbook to dismantle 
their enemies through information warfare.
    The U.S., in failing to respond to active measures, will 
surrender its position as the world's leader, forego its role 
as chief promoter and defender of democracy, and give up on 
over 70 years of collective action to preserve freedom and 
civil liberties around the world.
    Russia's strategic motto for America and the West is: 
``Divided they stand and divided they will fall.'' It's time 
the United States reminds the world that, despite our day to 
day policy debates and political squabbles, we stand united 
alongside our allies in defending our democratic system of 
government from the meddling of power-hungry tyrants and 
repressive authoritarians that prey on their people and 
suppress humanity.
    I'll close here with my opening remarks, but I have many 
recommendations which are in my written testimony. Mr. 
Chairman, I ask that my full written statement, which includes 
these recommendations, be submitted for the record, and I hope 
that during the question and answer session we can further 
discuss how we might counter these active measures. Thank you 
for inviting me.
    [The prepared statement of Mr. Watts follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Chairman Burr. Mr. Watts, thank you for your testimony, and 
all written testimony will be included as part of the record.
    The Chair and the Vice Chairman are going to exit and vote. 
I'm going to recognize Senator Risch for his questions and in 
our absence he'll allow back and forth based upon seniority.
    Senator Risch.
    Senator Risch [presiding]. Thank you, Mr. Chairman.
    Gentlemen, it always impresses me the fact that when we 
hear people talking about Russian policy and what they want, 
first of all, how uniform it is. Everybody seems to agree on 
where they're going, what they do and what they're doing to get 
there. But after processing that over a long period of time, 
one's got to come to the thought process of what happens in a 
post-Putin Russia, because everyone's got a shelf life and his 
has been extended, it looks to me, well beyond what normally 
would happen under these circumstances.
    So give me your thoughts briefly, each of you, if you 
would, as to what happens? Do they stay on the same track 
they're on or do they come to the realization that there's 
bigger and better things in life to pursue than what they're 
doing right now?
    Mr. Godson.
    Dr. Godson. Well, thank you for the question. As you know, 
there are a lot of variables here at work. One would be what 
we--how we respond to Putin and the behavior of the apparatus 
that they have. Do we let them continue to do this or do we 
start to develop some sort of a strategic response to that? 
That would be one of the variables.
    Do they find that they can get away with, use activities as 
they have in the past? And if so, then the elite that has taken 
power in Russia would be inclined to continue. They found that 
even when they sometimes have not been as effective as they 
expected, that active measures still is a capability that 
enables them to--I use the example of being able to fight above 
their economic and political capabilities.
    So unless there was a dramatic change in the regime, 
there's little reason to believe that they would cease the 
active measures policy and strategy they have, barring that we 
don't actually cauterize it and limit its effectiveness. If we 
don't, then they'll have an incentive to continue.
    Senator Risch. Dr. Rumer.
    Dr. Rumer. Thank you, sir. Well, Mr. Putin I believe is 62, 
a man in his prime. He's positioned to run in 2018 again for 
another six-year term. So I think what we see today is going to 
be with us for a long time, by the looks of it for the next two 
presidential terms in this country. So we should base our 
policy accordingly.
    I think it would be incorrect and counterproductive to tar 
all Russians with the same brush. But there's something there 
in Russian traditional security perceptions that transcends 
party lines, that transcends regimes, and Russian perceptions 
of security don't really change all that much over time. So I 
think we should be thinking about the drivers of Russian 
foreign and security policy in terms of continuity rather than 
radical change. After all, we already saw radical change in 
1991 and things in the end didn't really change that much.
    As long as Russian elites will see themselves--as long as 
they see themselves as being inferior and struggling against a 
more advanced and a more powerful Western alliance, they will 
be relying on all tools in their toolkit, and information 
warfare will be--disinformation will be part of it.
    We may hope that if some day someone like the corruption 
fighter Alexei Navalny gets elected, rises to the leadership of 
the country, having been a victim of such disinformation, he 
may be more restrained in it. But I would say that the basic 
parameters of Russian policy are generally set in place.
    Senator Risch. Thank you, Doctor. I've only got a short 
time left. I want to hear from Mr. Watts.
    Mr. Watts. Regarding Mr. Putin, I would look to these two 
gentlemen primarily. But my thoughts are: one, he's not going 
away any time soon; two, he will definitely shape some sort of 
a successor in his place to continue on with what he's doing 
right now.
    I think the third big thing that we can't discount is the 
connection with criminality. There is--between these elites and 
their sort of predatory capitalist practices, what we see in 
cyberspace with cybercrime and how they've used hackers very 
well as part of their active measures, we can't discount that 
we'll see a predatory elite emerge that will be something we 
have to deal with.
    I think the fourth thing, which goes to the first point, is 
I'm not sure what our policy or stance is with regards to 
Russia at this point in the United States. I think that's the 
number one thing we have to figure out, because that will shape 
how they interface with us. Having watched the end of the 
Soviet Union as a cadet at West Point and then fast forwarding 
to today, I'm a little bit lost as to what our U.S. interests 
are or how they're coalescing. I know what I would recommend, 
but I think that will have a major impact on how we will be 
able to interface. And maybe I see opportunity in Putin's 
departure.
    Senator Risch. Thank you, Mr. Watts.
    Senator Feinstein.
    Senator Feinstein. Thank you, Senator Risch.
    Gentlemen, thank you very much for being here and thank you 
for your testimony. I'm sorry I was out to vote while I missed 
some of it. But I've been on this committee for 16 years and 
the intelligence community report, which is the report of all 
of our major intelligence agencies which was released on 
January 6th, is among the strongest I've read. It covers the 
motivation and the scope of Russia's actions regarding our 
elections, as well as the cyber tools and the media campaigns 
they used to influence public opinion.
    The report makes a key judgment and here it is: ``Russian 
President Vladimir Putin ordered an influence campaign in 2016 
aimed at the United States political election, the consistent 
goals of which were to undermine public faith in the United 
States' democratic process, denigrate Secretary Clinton and 
harm her electability and potential presidency.''
    It further assesses that, and these are quotes: ``Putin and 
the Russian government developed a clear preference for 
President-elect Trump.''
    Here's two questions. Do you believe the Intelligence 
Community Assessment accurately characterized the goals of 
Russian influence activities in the election? And I'd like to 
go down the line with a yes or no answer. If you want to 
explain it, that would be fine. Who would like to go first?
    Dr. Godson. Thank you for a difficult question. I 
personally don't find myself at odds with the ICA study that 
you identified However, the statement that this was developed 
in 2016 needs to be parsed a bit. The Russians could not do 
this if they started in 2016. They wouldn't have had the 
capability. In the active measures world, one can want to do 
many things, but one has to have the means to do this.
    Senator Feinstein. When would you estimate it was started 
by your statement?
    Dr. Godson. Well, it's not that I have a specific date, but 
that one needs to have an infrastructure abroad to be able to 
do this. Now, you can use some of the infrastructure in your 
own country, especially with cyber capabilities, but----
    Senator Feinstein. Which they had.
    Dr. Godson. Which they had. But active measures usually 
involve people as well as machines. And it would be 
extraordinary if they hadn't prepared a lot of the ground to be 
able to do this, not only in the United States, but in other 
countries as well. They have this apparatus, and this apparatus 
is well-staffed, well-trained.
    The training of the people who work in this apparatus is 
quite surprising to us. We've known about it, but we don't 
really take it very seriously. It's not three months or six 
months training or a year's training. They have much longer 
training periods and some of them are pretty good, not ten feet 
tall, of course, but pretty good.
    Senator Feinstein. I got the point.
    Next person.
    Dr. Rumer. Yes.
    Senator Feinstein. Thank you. I appreciate it.
    Mr. Watts. Yes, and I can give you the timeline of their 
development if you would like.
    Senator Feinstein. Please.
    Vice Chairman Warner. We have accounts dating back to 2009 
that are tied to active measures. 2014 was their capability 
development based on my assessment, where they started working 
on their influence campaigns. 2015 was when they tied hacking 
and influence together for the first time, specifically during 
the DNC breaches. I was notified in November of 2015 that I had 
been targeted by a cyber attack.
    2016 was the push into the U.S. audience landscape to build 
audience. August 2016 was when I witnessed them pushing toward 
the election and that was in full--or August of 2015 all the 
way through 2016, so a one-year buildup to the election.
    Senator Feinstein. Thank you.
    Has Russia ever--I think I know the answer to this, but if 
you would elaborate on it--conducted other similar campaigns in 
other countries to this level of impact with the goal of 
tilting the playing field to increase one candidate's chance of 
winning?
    Mr. Watts, if you'd go first.
    Mr. Watts. Yes. I believe you need to look back to 2014 in 
both Ukraine and another Eastern European country that's 
escaping me. In 2015, 2016, the Brexit campaign should be 
examined. I can't prove it one way or another. And then today, 
all of the European elections that they're choosing to meddle 
in--France, Germany, Netherlands, Czech Republic.
    Senator Feinstein. Thank you.
    Would you like to respond?
    Dr. Rumer. Yes, they have conducted such campaigns in 
Ukraine in 2004 and in 2014 in Georgia. They have intervened 
heavily in domestic political campaigns in the Baltic States. 
So there are ample examples of that.
    Senator Feinstein. Thank you.
    Would you please respond, Doctor?
    Dr. Godson. Yes, they have a history of doing this well 
before this and they find it a successful use of their 
resources. So it does not surprise.
    Senator Risch. Thank you, Doctor. Thank you, Senator 
Feinstein.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you all for being here. I'm concerned that in our 
inquiry--and I certainly think it's important for us to know 
what happened--we are focusing so much on the tactics that 
we're not focusing on the broader strategy that's at play here. 
I want to briefly go through a number of instances and have the 
panel comment on whether or not they believe these are 
indicative of the efforts that are being targeted against the 
United States and the rest of the world by Vladimir Putin.
    We all know that Angela Merkel has taken a tough line on 
Ukraine against Russia. We know that there's a lot of 
controversy in Germany around migrants. In early 2016, a 13-
year-old known only as ``Lisa S.,'' a dual Russian-German 
citizen whose family had moved to Germany from Russia in 2004, 
told police she had been kidnapped in East Berlin by what 
appeared to be Middle Eastern migrants and raped for over 30 
hours. There was outrage in Germany and, obviously, protests 
against Merkel.
    The Russian foreign minister almost immediately jumped on 
the story, talking about the need to defend ``our'' Lisa, 
quote-unquote, and of course this story was spread far and wide 
by Russian-speaking entities and Russian media outlets.
    Subsequently, the prosecutors in Berlin announced that they 
had clear evidence that during those 30 hours she was missing, 
Lisa S. was actually in fact with people that she knew and a 
medical examination showed that she had not been the victim of 
a rape.
    Earlier this year, a little-known news outlet published on 
a website an article that claimed that the United States was 
deploying 3,600 tanks to Eastern Europe to prepare for war with 
Russia. 3,600 tanks would represent about 40 percent of our 
entire tank force. Within days the story was republished by 
dozens of outlets in the United States and throughout Europe. 
As it turns out, the truth is we deployed 87 tanks.
    There is--going all the way back to September 11, 2015, 
residents in Louisiana awoke to a message, many of them did, on 
their Twitter feed that said: ``Toxic fume hazard warning in 
this area until 1:30 p.m. Take shelter, check local media and 
ColumbiaChemical.com.''
    On Twitter accounts, there were hundreds of accounts 
documenting a disaster right down the road from the people. One 
account said: ``A powerful explosion heard from miles away at a 
chemical plant in Centerville, Louisiana,'' a man named John 
Merritt tweeted. @AnnaRoussella shared an image of flames 
engulfing the plant. @Quesera12 posted a video of surveillance 
footage from the local gas station capturing the explosion. 
Another Twitter account posted a screenshot of CNN's home page 
showing the story had already made national news, claiming that 
ISIS had claimed credit for the attack, according to one 
YouTube video.
    A woman named @Zopakdon9--Anna Clinton McLaren is her name, 
I guess--tweeted to Karl Rove: ``Karl, is this really ISIS 
responsible for the #ColumbiaChemicals? Tell Obama we should 
bomb Iraq.''
    If anyone had taken the trouble to check CNN, as this 
article in The New York Times outlined, there was no such 
attack. It was a hoax, not some simple prank, as the article 
goes on to say, but a highly coordinated disinformation 
campaign involving dozens of fake accounts that posted hundreds 
of tweets for hours, targeting a list of figures precisely 
chosen to generate maximum attention.
    ``The perpetrators didn't just doctor screen shots from 
CNN''--and I'm reading from the New York Times article--``they 
also created functional clones of the websites of the Louisiana 
TV stations and the like.''
    The list goes on and on. We should fully document it in our 
report to the American people. A false story spreading, 
claiming that Germany's oldest church had been burned down by a 
thousand Muslims chanting ``Allah Akbar.'' Another story 
claiming that the European Union was planning to ban snowmen as 
racist.
    All of this, and on and on, and we should begin to document 
them for the American people. Isn't this the larger problem? 
Let me rephrase that. Aren't we in the midst of a blitzkrieg, 
for lack of a better term, of informational warfare conducted 
by Russian trolls under the command of Vladimir Putin, designed 
to sow instability, pit us against each other as Americans?
    This same article--I don't have enough time--it goes on: 
They posted false stories about a police shooting in Atlanta 
that never happened, about a series of things. In essence, are 
we in danger here because we are focused on the very important 
tactical move that happened in the election of 2016, to miss 
the broader point, and that is that this is a coordinated 
effort across multiple spectrums to sow instability and to pit 
Americans against one another politically, socioeconomically, 
demographically, and the like?
    Mr. Watts. I think the two lines of effort you brought up 
there that the Russians use are social dynamics that they play 
on, ethnic divisions, and global calamity or inciting fear. 
These two lines haven't been discussed much. The third one is 
financial. They oftentimes put out fake stories about U.S. 
companies, which then cause stock dips, which allow all sorts 
of predatory trading and other things to happen.
    We've focused on disinformation around the political scene. 
But misinformation across the board, particularly from the 
Russian propaganda networks, has incited fear inside the United 
States on multiple occasions, as you noted. One last year was 
there was the JFK Terminal shutdown about alleged gunshots. We 
watched social media trolls and gray outlets pump fake stories 
out which ramped up that fear, which caused mass panic.
    So they have created the ability, by gaining audience in 
the United States, to steer Americans unwittingly in many 
difficult directions that can cause all sorts of danger and 
even violence in certain cases. I think the Pizzagate scandal 
that we saw last fall is another such example of 
misinformation, maybe not attributed to Russia, but we have a 
problem writ large right now with our information sources.
    Senator Risch. Senator Rubio, do you want to----
    Senator Rubio. No, I want to listen.
    Dr. Godson. I think you hit the nail on the head and I 
don't really have a lot to add to it. We are faced with a 
strategic attack. It's not a kinetic attack usually. It's a 
political attack. Then the question comes what sort of 
strategic response are we going to be able to develop to that, 
that attack? We could elaborate on that.
    Senator Risch. Senator Warner.
    Vice Chairman Warner. Again, I thank all the witnesses for 
the testimony.
    Dr. Rumer, I'm going to start with you. We've heard a lot 
recently about the role of Oleg Deripaska, the head of Russia's 
largest aluminum company, and the role he may have played in 
helping to support the goals of President Putin. Can you 
characterize Mr. Deripaska's role in this area? And then more 
broadly, are there any of the oligarchs in Russia, at least 
those not in exile, that aren't somehow caught up in the 
Kremlin's foreign policy activities? Are there any of them that 
are truly independent?
    Dr. Rumer. Thank you, Senator Warner. I can't add anything 
to the conversation about Mr. Deripaska beyond what's appeared 
in the public domain. I don't think I have any special insights 
here. I feed off the same reporting that's appeared in the 
papers.
    I would be careful to describe all Russian oligarchs--and 
``oligarch'' itself is a fairly ill-defined term. It was 
prominent once, but it's a much bigger class of major Russian 
businessmen.
    I would be reluctant to describe them all as tools of the 
Kremlin. Obviously, Russian businessmen who do business in 
Russia have to be mindful of Kremlin political preferences and 
the Kremlin has considerable influence over them. But I don't 
have--I can't speak from concrete information about them being 
directly instruments of the Kremlin foreign policy. That's not 
something that I have evidence to back up.
    So I think I'll stop at that.
    Vice Chairman Warner. Mr. Watts, one of the things in your 
testimony--I've been talking a lot about the use of the 
internet trolls and their ability to then exponentially gain 
more power through creating these botnets. I'd love you to kind 
of comment about what we can do to preclude that on a going-
forward basis, and perhaps you can explain this technique 
better than I have in my various public statements.
    Mr. Watts. Sure. The first thing that I think we need to 
understand is it's not all automated and it's not all human. 
There's a combination of the two. So you have a series of 
humans that work in their psychological warfare groups, that 
command both bots at the same time. I like to, as an analogy, 
to look at it like artillery. You have someone who's engaging 
with you as an individual and at the same time they can launch 
a bot to amplify that story forward.
    Vice Chairman Warner. Obviously, a ``bot'' is the ability 
for a computer to take over other computers that are not being 
used and in effect magnify the number of hits they might get to 
a particular social media site, correct?
    Mr. Watts. Exactly. Or you can create more personas in 
Twitter, for example, which makes it look like there are more 
people than there really are. It's a Potemkin village strategy 
essentially that amplifies your appearance.
    So what they do is they launch those simultaneously as they 
begin the engagement or push of false news stories, usually 
from RT and Sputnik News. They do that in unison, which games 
the social media system such that such a high volume of content 
being pushed at the same time raises that into the trends that 
you'll see.
    If you look at Facebook or Twitter or whatever it might be, 
you'll see the top ten stories that are out right now. It 
pushes that up there. As soon as it pushes that into that top 
ten feed, mainstream media outlets then are watching that and 
they start to examine that content.
    So, for example, the Incirlik attack I talked about, one of 
the key hashtags they pushed is #Media. The goal is to get that 
into the top of Twitter streams so that mainstream media has to 
respond to that story. When mainstream media responds to it or 
just looks at it without even commenting on it, it takes over 
organically and you'll see it move around the internet like a 
virus.
    Vice Chairman Warner. One thing--and I'm going to spend a 
lot of time on this this afternoon--there have been reports 
that their ability to target this information, some reports at 
least, saying that in the last week of the campaign in certain 
precincts in Wisconsin, Michigan, and Pennsylvania, there was 
so much misinformation coming out talking about Hillary 
Clinton's illnesses or Hillary Clinton stealing money from the 
State Department, that it completely blanked out any of the 
back and forth that was actually going on in the campaign.
    One of the things that seems curious is, would the Russians 
on their own have that level of sophisticated knowledge about 
the American political system if they didn't at least get some 
advice from someone in America?
    Mr. Watts. Yes. I know this from working on influence 
campaigns in the counterterrorism context. If you do an 
appropriate target audience analysis on social media, you can 
actually identify an audience in a foreign country or in the 
United States, parse out all of their preferences. Part of the 
reason those bios had ``conservative,'' ``Christian,'' 
``America,'' all those terms in it, is those are the most 
common ones. If you inhale all the accounts of people in 
Wisconsin, you identify the most common terms in it, you just 
recreate accounts that look exactly like people from Wisconsin.
    So that way, whenever you're trying to socially engineer 
them and convince them that the information is true, it's much 
more simple because you see somebody and they look exactly like 
you, even down to the pictures. When you look at the pictures, 
it looks like an American from the Midwest or the South or 
Wisconsin or whatever the location is.
    And they will change those. They can reprogram them. Where 
they tend to show their hand is, the problem is once they build 
an audience they don't want to get rid of it. So you'll see 
them build an audience and try and influence one segment, let's 
say of the English-speaking media, and then they will reprogram 
it to try and influence a different story. It's the same 
problem any cable news outlet would have. Once you build an 
audience and you change your content to some other topic, you 
still want to keep your old audience or otherwise you can't 
gain any traction.
    Vice Chairman Warner. Again, my time is up, but I just want 
to know: This can be used--it was used in 2016 toward one 
candidate, but obviously Russia's interests are Russia's 
interests.
    Mr. Watts. Well, it's used right now against people on both 
sides of the aisle. We will watch them play both sides. They 
might go after a Republican person in this room tomorrow and 
then they'll switch. It's solely based on what they want to 
achieve in their own landscape, whatever the Russian foreign 
policy objectives are.
    So if they want to achieve one candidate--let's say 
President Trump, for example, wins and now turns against them; 
they will turn on President Trump as well. They will play--they 
win because they play both sides, and the audience will go with 
them once they have them.
    Chairman Burr [presiding]. I do know that the Vice Chairman 
hates Russia, just to make that public.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Godson, you make the point that the Russians don't 
always win with their active measures and you mentioned the 
period of the 1940s and the 1950s. In your judgment, how 
successful have the Russians been in the last year in achieving 
their goal of sowing doubt, polarization, and trying to disrupt 
and cast doubt on the validity of the election, putting aside 
the issue for the moment of the critical question of whether 
there was any collusion between any campaign and the Russian 
efforts?
    Dr. Godson. From the information that we have in the public 
sector and the private sector, I would say that they must be 
rather pleased with the results of their investment, whenever 
they started to develop this campaign.
    I think, though, however, they--and the fact is that they 
are seeming to prepare to do the same thing in other campaigns 
abroad. So looking at the way they've behaved over the long 
course of time that they've used active measures, I think they 
will continue to do this and to reap some benefits from it, 
unless there is a considerable response from the democratic 
societies. At the moment, I would say that our response is too 
restrained and that, unless they see that there is a cost to 
this that makes this not a very attractive thing to do, I don't 
see why they won't continue it.
    I hope that's responsive.
    Senator Collins. Thank you.
    Dr. Rumer, Mr. Watts made the point that the Russians will 
go after either side, that they're trying to disrupt society, 
cast doubt on Western democracies. One largely overlooked part 
of the Intelligence Committee's--the intelligence community's 
report last fall was information in the annex that suggested 
that Russia Today, which most people view as an organ of the 
Russian government, was instrumental in trying to advance the 
protests of Occupy Wall Street.
    Could you comment on that, and is that an example of Russia 
working to promote the far left versus the far right that we 
hear so much about?
    Dr. Rumer. Yes, ma'am. It's a perfect example in that 
Occupy Wall Street was a genuine movement on the left, but it 
certainly serves the interests of Russian propaganda to play it 
up as a major challenge, as something representing a major 
fault line in our society, because it drives the message that 
the United States is in decline, the United States is in 
crisis, plays up to audiences at home in Russia and abroad that 
the United States is not the perfect society, something that 
they really like to emphasize.
    So that's an excellent example and I think it deserves the 
attention, the spotlight that you cast on it. Mr. Watts 
referred to the minor protest outside our base in Incirlik in 
Turkey. Well, there's another example, that there was a 
protest, but again it's blown out of all proportions.
    As you know, the best propaganda is that which has a grain 
of truth to it and then gets played up and up and up.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Let me say thank you to our witnesses. Gentlemen, here's 
where we are now. The American people are worried about what's 
ahead with regard to Russia. The public now gets most of its 
information from leaks, from daily press stories, and 
apparently inaccurate tweets from the President.
    This feeds distrust and causes Americans to question the 
legitimacy of our government. So I believe the committee needs 
to lift the fog of secrecy about what really happened to our 
democracy. That's why it's so important we have open hearings 
with the intelligence community, the FBI, Homeland Security, 
and Treasury.
    I believe the key to a successful investigation is 
following the money. Yesterday I wrote a letter to the Chairman 
and the Vice Chair urging the committee to look into any and 
all financial relationships between Russia and Donald Trump and 
his associates.
    I'm also taking this issue on as the Ranking Member of the 
Finance Committee, of which Senator Burr and Senator Warner are 
also members. I and other members of the Finance Committee have 
already urged that the committee exercise its authority to 
obtain and review Donald Trump's tax returns. This review ought 
to include the Trump Organization and its partnerships.
    Senate investigators should also look into any violations 
of the Foreign Corrupt Practices Act, which ensures that 
investors are not paying bribes overseas. The Treasury 
Department is responsible for other programs and investigations 
that may uncover suspicious financial activities by Donald 
Trump and his associates.
    It is already a matter of public record that entities 
associated with Donald Trump have been the subject of millions 
of dollars of fines for willful, repeated, and longstanding 
violations of anti-money-laundering laws. Information about 
Donald Trump's finances, his family, and his associates may 
lead to Russia. We know that in 2008 the President's son said 
that ``Russians make up a pretty disproportionate cross section 
of a lot of our assets.'' Since then, we've gotten mostly smoke 
and mirrors.
    The committee needs to follow the money wherever it leads, 
because if money-laundering, corruption of any kind, or fishy 
real estate deals point to the Russian oligarchs and criminal 
elements, then the Russian government may only be a step or two 
away from us.
    So now my question. There is an extraordinary history of 
money-laundering in Russia. Billions of dollars from corruption 
and other illegal activities have been moved out of the 
country. What that means is that Russia's corruption problem 
may also be our corruption problem.
    So here's my question for the three of you as experts on 
Russia. I'd like you three to tell us about corruption in 
Russia so as to help us follow the money in our investigation.
    Here's my specific question. I'm going to start with you, 
Mr. Watts. How can the committee track this fuzzy line between 
the Russian oligarchs, Russian organized crime, and the Russian 
government?
    Mr. Watts. Thank you, Senator. I would first start off 
with, I'm not the foremost Russian expert. I came to this 
through the Islamic State and ISIS. I'm really a 
counterterrorism person for the most part and came to active 
measures mostly because active measures came after me.
    The second part that I would add to this discussion, 
though, is there is a money trail to be searched for and 
discovered. We've focused very heavily on elites in our public 
discussion, what are elite people doing. But this influence 
action has both a virtual component and a physical component 
that's happened.
    I would say that what I can't see which I would want to 
know is: What is happening in Eastern Europe? There's a 
disproportionate number of fake news outlets, conspiratorial 
websites, that are run from there, that are English-speaking 
editors that are pro-Russian, trained in Russia sometimes. How 
are they funded? That would be one component.
    My guess or my estimate, my hypothesis working in the 
intelligence field, is that there is some sort of Russian intel 
asset that is funding them in one way or another through some 
sort of scheme.
    The other part that I think we should be looking at is 
follow the trail of dead Russians. There's been more dead 
Russians in the past three months that are tied to this 
investigation, who have assets in banks all over the world. 
They are dropping dead even in Western countries. We've seen 
arrests in I believe it's Spain and different computer security 
companies that are based in Russia which provide services to 
the United States.
    These are all huge openings to understand how they are 
funded by the Russian government. I don't have the capability 
to do that from where I sit, but I think that's a huge angle. 
If you can prove that part of it, I have to say on the 
influence side of it we can see it.
    The one thing that's been misconstrued in the public 
discussion about Russian influence is that it's covert. You can 
hack stuff and be covert, but you can't influence and be 
covert. You have to ultimately show your hand. That's why we've 
been able to discover it online.
    But the missing part is how did they conduct this 
influence. There are newspapers, there are media outlets. The 
Balkans are littered right now with these sorts of outlets. 
That's where I would start to dig in the financial space.
    Senator Wyden. I'm almost out of time. Dr. Rumer, same 
thing. This fuzzy line is what I'm particularly interested in: 
organized crime, oligarchs, and the government. I heard you 
talk about one person, you couldn't comment on him. But just 
give me your analysis about this fuzzy line, because I keep 
coming back to that.
    Dr. Rumer. It is definitely a fuzzy line, and I think those 
relationships are probably best discussed not in an open 
session, because----
    Senator Wyden. You're saying they ought to be discussed?
    Dr. Rumer. I believe they ought to be discussed.
    Senator Wyden. Good. Fair enough.
    Dr. Rumer. But I do believe that it is something for our 
intelligence community to take up rather than for us to discuss 
in open session.
    Senator Wyden. I probably ought to quit while I'm ahead----
    Chairman Burr. Senator Blunt.
    Senator Wyden. Mr. Chairman, can Mr. Godson just finish 
that question?
    Chairman Burr. Dr. Godson, quickly.
    Dr. Godson. I'm very pleased----
    Chairman Burr. Turn your mike on.
    Dr. Godson. I'm very pleased that you're having this open 
session. I think it's very useful. But I do think that this is 
a sensitive subject and so that it will require skill and care 
on the part of our society so we don't overreact, which in our 
history we sometimes have, to being surprised. So I do think 
there should be a time to discuss this.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Chair.
    Dr. Godson, let's just start right there. Why do you think 
we--I've got about four questions, so they don't need to be 
exhaustive, and I can follow up with more written questions 
later. And, Mr. Watts, I'm going to come to you next.
    Why do you think there was this element of surprise? I 
mean, this is not new Russian activity in other places in the 
world. I think Mr. Watts said they had to start before 2016. 
But it does seem that the intel community, the U.S. Government, 
the media, is surprised that they have this level of 
involvement. You just said we shouldn't have been surprised. 
Why do you think we were surprised?
    Dr. Godson. I do think it has something to do with our 
culture, that we don't expect people to behave in this 
particular way. We've been surprised many times in our history, 
so I don't think----
    Senator Blunt. We expect them to do it everywhere else, but 
not do it here?
    Dr. Godson. Well, we just are sort of surprised when 
somebody takes a concerted effort to be involved in our 
affairs. We know that sometimes this happens abroad, but we 
don't really think this is a major tool or instrument that 
people use. So we found ourselves surprised in the 1940s and 
the 1970s and the 1980s and so on.
    So I'm not too surprised we are surprised.
    Senator Blunt. Mr. Watts, why do you think we seem to have 
been so unready for this?
    Mr. Watts. One, our intelligence community has been 
overfocused on terrorism and the Islamic State and there wasn't 
much resources or bandwidth to focus on it. The second one is 
our traditional methods for detecting and counter-intelligence, 
things like active measures, are based on HUMINTs. We run spies 
versus counter-spies. Most of this influence came online. They 
essentially duplicated the old active measures system without 
setting foot inside the United States.
    I think the third part of it is the intel community in the 
United States is very biased against open source information. 
They've been surprised repeatedly: ISIS, the Arab Spring. You 
can go back over the past six to seven years. We worry a lot 
about security clearances and badges and who gets access to 
doors and does the break room have a shredder, but when it 
comes to the open source we miss what's right in front of our 
nose.
    My two colleagues and I use three laptops and we do this at 
our house. But for some reason the entire intel apparatus, with 
billions of dollars, will miss a tweet or a Facebook post 
that's right in front of them, but will be highly focused on 
the security system and these closed sources, which are super-
useful. But we have not changed that orientation in our intel 
community.
    Senator Blunt. Mr. Rumer, in Europe do you think the 
interventions there were so obviously different that we 
wouldn't have caught on? Or how do you see the difference in 
what the Russians have done, particularly in the past 15 years, 
in Europe and what they did here?
    Dr. Rumer. Well, there was an element of unpreparedness on 
our part, I agree with my colleagues. I would say that--well, I 
can speak from personal experience and that is I just didn't 
believe that any one intervention, any one agent, can swing our 
election across 50 states. I think--I thought nobody in their 
right mind would try to take on the challenge of such expensive 
complexity.
    But then when you think about it more carefully, as we have 
now with the benefit of hindsight, if you look at the election 
of 2000, when the Florida vote was decided by a very small 
number of votes, when we now know some of the votes were 
decided--some states were decided by a very small margin--you 
realize that a more sophisticated actor that has, as my 
colleagues have pointed out, years and decades of experience of 
playing in this field, can actually aspire to make a meaningful 
difference.
    Senator Blunt. Let me ask another question about that. I 
know the Vice Chairman mentioned hand-counting of ballots in 
the recent elections in one European country. You said that the 
Russian intelligence services directly intervened. We don't 
have any reason to believe--any of you can answer this--that 
they intervened in any election counting system this time? I 
think we should be concerned that that never be allowed to 
happen and one of our goals here should be to be sure we're 
protecting that part of the process.
    But when you said directly intervened in the elections, no 
indication, Mr. Rumer, of directly intervening anywhere in the 
counting of votes on election day?
    Dr. Rumer. Right. There are public statements from our 
intelligence community and law enforcement and DHS that our 
counting systems have not been affected. I can only go on the 
strength of that and I fully believe that statement. But we 
certainly should be aware of that and concerned about it.
    Senator Blunt. Absolutely.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    I want to start out by just thanking the Chairman and the 
Vice Chairman for their willingness to work so closely together 
on leading this investigation. I certainly think that today's 
hearing is helpful in setting a baseline for the intentions and 
the techniques of Russia's active measures campaigns. But I 
also look forward to public hearings in which we can dig even 
deeper into the substance of what happened specifically in the 
2016 election.
    Similarly, I believe it's critical that we dig into the 
financial aspects involved and that we follow the money to 
determine whether and how the Russians have used financial 
leverage to achieve their strategic goals. I think we need to 
do everything possible to get to the truth. The American people 
certainly deserve no less, and I think if we do not take this 
seriously it is not hyperbolic to say that our fundamental 
democratic institutions are at risk.
    Dr. Godson said something in his statement for the record 
about the history of relying on agents of influence. In other 
words, recruiting and coopting sympathetic groups or 
individuals in the U.S. and in the West to advance the Russian 
agenda. Do you all agree that financing is one of the methods 
often used by Russia to recruit sympathetic agents?
    Dr. Godson. Yes.
    Dr. Rumer. Yes. There is publicly available evidence of a 
Moscow-based bank financing one of the presidential candidates 
in France.
    Senator Heinrich. When they use financial resources to 
recruit agents of influence, like the example you just made, is 
it always a simple exchange of money for assistance or does 
Russia sometimes attempt to buy influence more subtly, through 
access to lucrative business deals and contracts and those 
kinds of arrangements?
    Dr. Godson. Yes, I think all of the above we can show 
examples of in the past.
    Dr. Rumer. Yes, they have used their considerable financial 
business leverage in Eastern Europe to cut favorable energy 
deals, to offer lucrative deals to local companies and 
governments.
    Mr. Watts. I think the key point--and this is comparing it 
to Soviet active measures today--is we didn't do business 
transactions with the Soviet Union. So they have so many more 
access points to compromise people financially or to influence 
them on the financial space that they couldn't have done during 
the Cold War.
    Senator Heinrich. This next question is for any of you. I'm 
curious if you see money in politics as an opening for Russia 
to be able to potentially manipulate our elections, especially 
given their expertise at moving financial resources through 
networks and the change in our own environment, in which there 
is now a lack of transparency in the current U.S. campaign 
finance environment, where oftentimes you have elections where 
a majority of the dollars spent are not even originating from 
the individual candidates themselves.
    Have any of you given that some thought?
    Mr. Watts. I think it's a little bit overstated, based on 
the public part of it. The Russians aren't stupid. They know 
that if they are ever caught directly putting money into what 
looks like a Manchurian candidate kind of scenario, this could 
be provocation for war or it could be sanctions. It could be a 
host of different things.
    At the same point, I would also offer you, from an 
intelligence perspective, why not look at it as a way to 
compromise somebody? So if you have a candidate that's doing 
well and you have very open campaign finance, why not slip them 
some money where they don't know the original source of it, 
such that if it's revealed later they are discredited?
    So it can go both ways. It's not just promotion. It can 
also be used as a tool and a weapon.
    Senator Heinrich. You, Mr. Watts, I think did a really good 
job of laying out for us how these influence operations 
actually have the impact of sort of organically changing the 
trends on media and end up being sort of a self-reinforcing 
mechanism.
    Are there analytic or digital tools that can discount the 
impact of those bots and of that manufactured forcing mechanism 
within the way that information travels on the web today and 
impacts the media?
    Mr. Watts. I think all the social media companies are 
starting to realize that their ad revenue mechanisms can be 
manipulated for this. There is more than just Russian fake news 
out there. You've got profiteers, you've got political groups 
that do that, and you've got satire, which is thrown in the mix 
of it.
    You're seeing the social media companies now try and 
regulate this now or deem things as fake news, but that's going 
to fail. Ultimately, any attempt to deem things as fake or not 
fake is going to lead to freedom of speech violations, freedom 
of the press violations, because how do you do that? How do you 
determine who's being fair or not.
    I think a better way to do it and what we propose is to 
create the version of Information Consumer Reports, which is an 
independent agency which is funded by the social media 
companies, has no government involvement, no government 
funding, that provides a rating in terms of the news that shows 
up on your feed, such that, much like nutrition labels on food, 
you know what you're consuming.
    Right now part of the reason this is so effective is a fake 
news outlet can pop up one day, pump out stories that are 
sensational, and fall down the next. The consumer and American 
on their Facebook feed, which is curated to the things that 
they like to click on, and even in their Google searches, which 
is curated to things other people like to click on like them, 
end up clicking on these things because they're popular.
    If they had a score or a rating, some sort of symbol there, 
that said, you're more than welcome to click on this, but this 
is the National Enquirer, you can evaluate how much of it is 
truth and how much is manipulated truth and how much is false--
just like we saw with Consumer Reports when I was growing up, 
it had 15 variables, it's rated over time, and it becomes a 
trusted entity that you can go to.
    I think that's a better way to do it. We're not restricting 
Americans' freedom of speech and press, and at the same point 
if they want to look at fake news they can look at it, but they 
know what they're getting into.
    Senator Heinrich. Thank you, Mr. Chair.
    Chairman Burr. Senator Lankford.
    Senator Lankford. It's hard to believe we're even having 
this hearing today discussing this topic, since Putin already 
cleared this up earlier today. He came out with a public 
statement just hours ago saying: ``Watch my lips. No.'' and 
then followed up with: ``All these things are fictional, 
illusory, provocations, lies, used for domestic American 
political agendas. The anti-Russian card is played by different 
political forces inside the United States to trade on and 
consolidate their positions inside.''
    Well, he's certainly consolidated us.
    It is painful to watch the Russian people trapped in a 
regime that is doing this worldwide. They'd like to be able to 
watch the Olympics and know their athletes weren't doped ahead 
of time. They would like to believe their own news when the 
Russians proclaim, we're not in Ukraine and we're not in Syria, 
and they are. And it would be nice if we could, as he said, 
``Watch my lips'' and know that he's not trying to deceive our 
audiences.
    My question is, first: Why did he think he could get away 
with it this time? This is not new for the Russians. They've 
done this for a long time across Europe. But he was much more 
engaged this time in our election. Why now?
    Mr. Watts.
    Mr. Watts. I think this answer is very simple and is what 
no one is really saying in this room, which is: Part of the 
reason active measures have worked in this U.S. election is 
because the Commander-in-Chief has used Russian active measures 
at times against his opponents. On 14 August 2016, his campaign 
chairman, after a debunked----
    Senator Lankford. When you say ``his,'' who's ``his''?
    Mr. Watts. Paul Manafort cited the fake Incirlik story as a 
terrorist attack on CNN, and he used it as a talking point.
    On 11 October, President Trump stood on a stage and cited 
what appears to be a fake news story from Sputnik News, that 
disappeared from the internet. He denies the intel from the 
United States about Russia. He claimed that the election could 
be rigged. That was the number one theme pushed by RT, Sputnik 
News, white outlets all the way up until the election. He's 
made claims of voter fraud, that President Obama's not a 
citizen, that Congressman Cruz is not a citizen.
    So part of the reason active measures works and it does 
today in terms of Trump Tower being wiretapped is because they 
parrot the same lines. So Putin is correct, he can say that 
he's not influencing anything because he's just putting out his 
stance. But until we get a firm basis on fact and fiction in 
our own country, get some agreement about the facts, whether it 
be do I support the intelligence community or a story I read on 
my Twitter feed, we're going to have a big problem.
    I can tell you right now today, gray outlets that are 
Soviet-pushing accounts, tweet at President Trump during high 
volumes when they know he's online and they push conspiracy 
theories. So if he is to click on one of those or cite one of 
those, it just proves Putin correct that, we can use this as a 
lever against the Americans.
    Senator Lankford. So this started in 2008, 2009 time 
period, as you've cited before with your previous timeline. 
Even before this rose up, even when there were 16 Republican 
candidates on the stage, this was a long time coming and it 
seemed to be very well organized this time.
    Part of my question is, I get that completely; why this 
time? They looked to be more prepared--probing, evaluating 
states, trying to get into voter records, trying to be more 
active in the process.
    Mr. Watts. They have plausible deniability. If you wanted 
to run this during the Cold War, you would have had to put 
agents inside the United States. They would have been stalked 
by counter-intelligence professionals. They would have been run 
down. You couldn't have gained an audience on a communist 
newspaper, for example.
    Today you can create the content, gain the audience, build 
the bots, pick out the election and even the voters that are 
valued the most in swing states, and actually insert the right 
content in a deliberate period. They pre-planned it. They were 
based a year and a half out. They're doing it today on the 
European elections.
    Here's the other thing that needs to come up. They try all 
messages. You know, we've been very focused on our presidential 
election. The Republicans tend to come up. But the Democrats, 
they were there, too. They were with Bernie Sanders supporters, 
trying to influence them in different directions.
    So they play all sides. Much like I learned in infantry 
school about how they use artillery, they fire artillery 
everywhere and once they get a break in the wall that's where 
they swarm in and they focus. So they do that very well today.
    You'll see them in Europe supporting people on the left or 
right, whichever will dismantle the democratic function that 
they're after. So I think the important point moving forward is 
we have to educate our public and even our institutions.
    And the mainstream media is right to be taking some on the 
chin right now. They've fallen for a lot of these fake news 
stories. They've amplified it and they've not gone back and 
done good fact-checking. The media needs to improve. Our U.S. 
Government institutions need to improve, and we've got to help 
Americans understand what the facts are, because if we don't we 
are lost. We will become two separate, maybe three, separate 
worlds in the United States, just because of this little bitty 
pinprick that was put in by a foreign country.
    Senator Lankford. Which is their goal.
    On that, Mr. Chairman, I yield back.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Mr. Chairman, thank you so much.
    I want to thank Senator King for allowing me. I have 
another meeting I've got to attend. But I wanted to ask this 
question.
    I've been around long enough to remember that my school 
desk at home protected me if I jumped underneath of it and held 
my head during a nuclear attack from Russia. I'm not sure that 
my United States Senate desk if I jump underneath of it and 
hold my head will protect me this time, and that's putting it 
mildly.
    With that being said, much has been written about the new 
hybrid style of warfare practiced by the Russians recently in 
Georgia, Crimea, and Ukraine. To be brief, Russia believes the 
lines between war and peace are blurred. Wars are no longer 
declared and no longer fought in the traditional manner, and 
the power of non-military means to achieve objectives exceeds 
the power of weapons in effectiveness.
    Some label it the ``Gerasimov doctrine,'' which is a 
combination of political, military, economic, social, and media 
means to achieve Russian strategic objectives. In the United 
States we would call this a whole-of-government approach.
    So my question would be to any of you, and I'll start with 
you, Mr. Watts, if possible: Is Russia's meddling in our 2016 
election proof that the United States is dealing with a nation 
that is acting in its own warlike manner?
    Mr. Watts. Yes. Would you like me to comment on some of the 
things we can do?
    Senator Manchin. Please.
    Mr. Watts. There are seven or eight things we could do 
immediately that are not very complicated.
    Senator Manchin. My desk is not going to save me this time, 
right?
    Mr. Watts. No. And I'll tell you right now, I'm going to 
walk out of here today, I'm going to be cyber-attacked, I'm 
going to be discredited by trolls. My biggest fear isn't being 
on Putin's hit list or psychological warfare targeting. I've 
been doing that for two years. My biggest concern right now is 
I don't know what the American stance is on Russia and who's 
going to take care of me.
    After years in the Army and the FBI, working in the intel 
communities today, I'm going to walk out of here and ain't 
nobody going to be covering my back. I'm going to be on my own. 
So that's very disconcerting. I think that speaks to what we 
need to do.
    One, in terms of falsehoods, we need to do two things. We 
need a State Department and a DHS website that immediately 
refutes when falsehoods are put out. These seem silly when they 
come out. Incirlik terrorist attack, for example. But the 
quicker they're refuted, the faster they die on social media. 
We caught the Incirlik attack because it was refuted quickly. 
When the Russians fake it, it gets exposed. If it goes on too 
long, it gets in the mainstream media and it runs out of 
control.
    The other part is the FBI. They're doing a great job in 
terms of investigating hacking, but the hacking powers 
influence. Whenever there's a hack we should immediately go in 
and look at what was stolen and figure out what is the 
anticipated smear campaign discrediting, how is this going to 
be weaponized in influence.
    The next one I think is super-important, which is educating 
U.S. businesses. Treasury and Commerce right now need to be 
doing awareness campaigns. Their companies suffer smear 
campaigns from foreign countries right now which change their 
stock prices. Their employees are in social media and are being 
picked off through social engineering and hacked.
    The other part really is in the private sector and the 
public sector that we need to look at. Mainstream media 
companies, we need to be working with them. What if they 
boycotted WikiLeaks collectively? What if they all didn't race 
to publish too quickly? If the damaging, stolen information 
that is misconstrued oftentimes, doesn't get into the 
mainstream media, if all of them block it out, Russia's 
influence dies on the vine.
    The last thing I think is the social media companies. 
Whether we like it or not, social media has become the news 
provider for almost all Americans. Our preferences shape what 
we see and our friends share stuff with us and it reinforces 
our views. So I think that for them, they're worried about 
these state-sponsored groups in their systems and how it's 
going to erode their company.
    Senator Manchin. Dr. Godson, I'd like to ask you, if 
possible, when the Iron Curtain fell and Russia fell out of the 
world power status, superpower status I might say, how long was 
that hiatus? And when it came back, did it come back with a 
vengeance because of Putin's leadership and determination not 
to be shelved?
    Dr. Godson. I wish we had more information about this. Some 
areas we know a lot and in some areas----
    Senator Manchin. Well, did you see basically a drop-off 
during the 1990s?
    Dr. Godson. We do see a bit of a drop-off, yes. However, 
the training, the development of cadre, continues. The 
hierarchy wasn't well established in terms of controlling all 
the various----
    Senator Manchin. Was it under Putin basically all this came 
back? Can anybody say that?
    Dr. Rumer.
    Dr. Rumer. Yes, sir. In the 1990s Russia was flat on its 
back. It just didn't have the resources and a lot of the 
capital in this area that it had accumulated basically fell 
apart. I think they were very, very frustrated during the 
Balkan wars when they really couldn't counter what they saw as 
our information domination of the airwaves. So in the early 
2000s when their economy came back, the apparatus came back 
with it, too.
    Could I just add one----
    Senator Manchin. Could I just ask one thing, because my 
time is running down here? Under Putin do you believe it's 
impossible to build a relationship to basically bring this back 
into some type of civility or order? Or is he just absolutely 
totally committed in the direction he's been going and will 
continue to go no matter what?
    Dr. Godson. Can I just add in answer to that?
    Senator Manchin. Quickly.
    Dr. Godson. It depends on what the costs are. In other 
words, what are we going to do in response?
    Senator Manchin. He only reacts to power out of power.
    Dr. Godson. Beg your pardon?
    Senator Manchin. He only reacts back out of strength, if we 
have strength.
    Dr. Godson. Most of us react to power and strength, too. 
But in this case we don't yet have enough information. The 
committee and the study that you're doing is very important for 
us, not just scholars studying this subject. It's very 
important because we can't really answer the question about why 
this time and why it's successful. We're not even sure what 
happened here. We have the ICA statement of January.
    But I just sort of want to put in a note of caution here. 
We sometimes in the United States think we know things and we 
have our sort of group-think and we all express certain views. 
And then we find out that later on maybe the sources of our 
evidence, the way we put the evidence together, didn't really 
make as much sense as we thought it did at the time.
    Now, we've had that in our recent experience in the 1990s 
and 2002 and 2003, and so on. I would just say we need a little 
bit of caution here to be able to know exactly what happened. 
There's so much information out, real and false and a mixture.
    Senator Manchin. I want to thank you so much. I'm really 
exceeding my time. They've been so kind to me. But thank you.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your appearance 
this morning.
    I want to return to the topic Senator Lankford broached, 
which is why Vladimir Putin and Russia's leaders thought they 
could get away with such a brazen set of actions last year, and 
doing so in a, quote, ``noisy'' fashion, as Director Comey 
testified last week. Dr. Godson, I'd like to hear your point of 
view on this.
    Specifically, I'd like to hear your thoughts about the 
context in which Vladimir Putin did this in 2015 and 2016. In 
the previous eight years, Russia had invaded Georgia, it had 
invaded and seized Crimea, its rebels had been supported in 
Eastern Ukraine to occupy the Donbas, they'd been provided 
missiles and shot a civilian aircraft out of the sky. Russia 
had repeatedly violated the INF Treaty.
    The Obama Administration had come into office proclaiming a 
reset and in 2012 Barack Obama mocked his opponent for claiming 
that Russia was our number one foe and promised Dmitry Medvedev 
that more could be done after the election when he had more 
flexibility.
    Would that series of events have emboldened Vladimir Putin 
to think he might be able to get away with such a noisy 
intrusion into our political system?
    Dr. Godson. I would suggest that you're right. I think that 
this does not help in restraining Russian interest in expanding 
in the near abroad and as far abroad as they can. So that the 
train of actions you described there didn't exactly persuade 
him that we would take his intervening in other matters, such 
as elections, seriously.
    So it's going to take, I think, some time and some activity 
by the United States, some important activity, to be able to 
establish our reputation in this arena. I know it's beyond the 
gist of the arena for the Intelligence Committee, but 
intelligence can play a major role in this. But I think that 
this is a whole-of-government, this is a policy issue, and it's 
more than intelligence.
    But I would hope, though, that we are in fact gaining the 
kinds of information we need to have an informed judgment about 
what you are asking about, in other words was he tempted by our 
lack of action? I hope, I presume, that the intelligence 
community has a tasking that identifies the Soviet responses 
and their perceptions and that if we don't have such a tasking 
on this subject then we won't be in a very good position to 
act.
    But I think in general, yes, I agree with the point you're 
making. I think the evidence is strong, but we need stronger 
information, too, to give us better judgment on this kind of 
issue.
    Senator Cotton. Dr. Rumer, I don't think you've had a 
chance to opine on this question yet.
    Dr. Rumer. Thank you, sir. I believe that the biggest 
factor in Putin's decision to pursue this aggressive line of 
intervention in our domestic politics has been the realization 
on their part, as Mr. Watts suggested, that this is a very 
lucrative environment in which they can achieve a lot with even 
a remotely plausible claim of deniability. So I think they just 
took advantage of the environment here.
    Senator Cotton. Mr. Watts.
    Mr. Watts. Yes, I'd like to add to what I said before. One, 
I don't think they thought their hand was going to be exposed 
as much as it is today. I think they thought they could do it 
in a more subtle fashion. So my belief is right now in Russia 
they're probably trying to figure out, how do I manage this 
situation now where I have extended myself?
    But the overriding issue with why Russia did this to the 
United States and does it now to Europe is we are weak. We do 
not respond. We have no organized response as a country or even 
a policy toward Russia right now. So I think until we set the 
boundaries about how we are going to either push forward with 
them, they're going to move as far as they can push. And then 
when we set our policy positions, which we don't have right 
now, they'll move in kind based on whatever that is.
    Senator Cotton. I have one final question about active 
measures. Dr. Godson, you talked in your testimony or in your 
opening statement about some of the history of Russian active 
measures. It's been going on for a long time. Bob Gates, former 
Director of the CIA and Secretary of Defense, wrote in his 
first memoir, ``From the Shadows,'' about Russia's campaign 
against the NATO deployment of intermediate-range nuclear 
forces in Europe in 1983, quote:
    ``During the period, the Soviets mounted a massive covert 
action operation aimed at thwarting INF deployments by NATO. We 
at the CIA devoted tremendous resources and effort at the time 
to uncovering this Soviet covert campaign.'' End quote.
    The United States is currently undergoing a long-delayed, 
deeply needed nuclear modernization campaign, upgrading our 
bombers, our dual-capable aircraft, our ground-based missiles, 
our long-range standoff cruise missile, and our submarine 
capability as well.
    Do you believe there is any chance that Russia is not 
currently engaged in an active measures campaign to try to 
thwart that modernization effort in the United States?
    Dr. Godson. No, I think you're right. I think you're right. 
I do believe almost certainly that they are. If not already 
engaged in it, they will be.
    Senator Cotton. Because that is simply what Russia does.
    Dr. Godson. That is simply what this particular leadership, 
successors to the previous generation, yes, I believe, do. I 
don't think it's inevitable Russians will do this, but I think 
these fellows will do it.
    Senator Cotton. I apologize, gentlemen. My time has 
expired.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chair.
    Just to sort of sum up what I've heard this morning: Number 
one, it appears that we're engaged in a new form of aggression, 
if not war, that the Soviet Union and now Russia has been 
utilizing for many years, but is now taking it to a much higher 
level. It strikes me that Vladimir Putin is playing a weak hand 
very well.
    A couple of questions, very, very short. I would say that 
what we've seen and what you've told us this morning is that 
what we saw in the 2016 election is absolutely consistent with 
prior Russian practice and current Russian practice in other 
parts of Europe and the world. Is that correct, Mr. Watts?
    Mr. Watts. Yes, it's still going on today.
    Senator King. Secondly, is it your opinion that this is 
going to continue? In other words, 2016 is not a one-off?
    Mr. Watts. No. I mean, they're going to continue until 
something meets their challenge, and right now there's nothing 
meeting their challenge. Any European effort I've seen is very 
small in comparison.
    Senator King. Mr. Rumer, would you say that, Dr. Rumer, 
that Putin is a Democrat, a Republican, or an opportunist?
    Dr. Rumer. I think he's an opportunist. And even if we 
counter this or when we counter his efforts, he will continue 
anyway. It's going to be a dynamic, not a sort of static 
situation where we deploy countermeasures and it stops. He will 
keep going on it.
    Senator King. I think it's very important, though, that we 
realize that he is neither a Democrat nor a Republican, because 
it means that everybody on this dais and everybody in political 
life in America regardless of their party is at risk. In 2016 
it happened to tilt because of his interest toward the 
political candidate of the Republican Party. But it could very 
well be the opposite in 2020 or 2022.
    Mr. Watts, you're nodding, but we can't record that.
    Mr. Watts. Yes, they will shift to whichever one supports 
or is most amenable to their foreign policy position or who 
they think is weak for manipulation. They will go with 
whichever one it is.
    Senator King. And one thing that was mentioned today 
somewhat briefly, but it came up in some of the questions, is 
not only did they hack the Democratic National Committee and 
misinformation and disinformation and all of that, but they 
also pushed and probed into our State election systems in a 
number of states. Apparently the information that we have thus 
far is it didn't work. But they tried.
    Mr. Watts, would you agree that they weren't trying for 
fun? This wasn't entertainment; they were looking for a place 
to make changes in election results?
    Mr. Watts. What no one's talking about is the information 
nukes that Russia sits on right now because they hacked 3,000 
to 4,000 people. I think this afternoon you're going to hear on 
the cyber more technical side, this hacking was pervasive. 
We've focused on the DNC. I've been targeted. Some other people 
have been targeted that I know.
    They have our information, so any time anyone rises up that 
they choose against, whether it's Republican or a Democrat, 
Congress or Executive Branch or a State official, they've got 
the ability to do the same thing they just did over the past 
year.
    Senator King. I want to touch on that in a minute, but I do 
want--do you believe that they will try again to compromise 
State-level election voting machines, registration rolls?
    Mr. Watts. They could.
    Senator King. They tried this time.
    Mr. Watts. I don't think it's about breaking into the 
election machines. The goal is to create the perception that 
the vote may not be authentic. So that's why it's smart to 
target voter rolls, because just the act of hitting a voter 
roll doesn't change the vote, but then you can run an influence 
story that says there's voter fraud in the United States, that 
the election is rigged, that the count wasn't accurate, and you 
can gain traction with it. It's a pinprick perception that 
they're trying to create.
    Senator King. You have mentioned several times, and I think 
the Russian term is, ``kompromat.'' I think it's interesting 
that they have a Russian term which is compromising 
information. This is active in the sense that not only can they 
take things off your computer, they can put things on your 
computer that will compromise you. I think that should send a 
shudder through all Americans, that this isn't only taking--you 
can be very careful in your emails, but something can show up 
on your computer that's fake and you could be in a lot of 
trouble.
    This is one of their techniques, is it not?
    Mr. Watts. Yes. Americans should look to Europe, where this 
has happened quite a bit more frequently.
    Senator King. Finally, we talked a bit about--you talked a 
bit about defenses. I think this is something that our 
committee in its report is going to have to look at. Cyber 
strategy is one. We have no cyber strategy in this country. 
There's no knowledge around the world of how we will react to a 
cyber attack, and I think that's part of what we have to do.
    Digital literacy, and that is people understanding the 
limitations of what they have on the internet. My wife has a 
sign in our kitchen that says ``The problem with quotes on the 
internet is you can't determine whether they're authentic. 
Abraham Lincoln.'' We have to educate our people that they 
can't believe everything that they read on the internet, and 
part of that is I think your very creative suggestion of a kind 
of Snopes, expanded Snopes, to check the validity, so people at 
least know, okay, there's some likelihood that that is untrue. 
And finally, public awareness, which is what this hearing is 
all about.
    Thank you, Mr. Chairman. I appreciate it.
    Chairman Burr. Thank you, Senator King.
    Senator Cornyn.
    Senator Cornyn. Mr. Chairman, let me start by complimenting 
you and the Vice Chairman again for your leadership. This is 
really important. I saw Senator Lankford and Senator----
    Chairman Burr. King.
    Senator Cornyn [continuing]. King, thank you--I had a 
blank--on TV this morning talking about why this was so 
important to our country and why it's so important we have a 
bipartisan investigation and follow the facts wherever they may 
lead.
    Mr. Watts, let me follow up on some of what Senator King 
was alluding to. I remember, of course, it wasn't that long ago 
where the Office of Personnel Management was hacked and 21 
million records, personnel records, were stolen of U.S. 
Government workers. Of that, about 5 million plus fingerprints 
included.
    I'm also remembering that a few years ago there was a 
story--I think it was in 2016--a story about the tactics that 
Putin uses to discredit political opponents in Russia and 
elsewhere. The New York Times story I pulled up said: ``Foes of 
Russia say child pornography is planted to ruin them.'' The 
sort of tactics that are being used both domestically and 
internationally against foes of the Putin administration, the 
sort of hacks, the cyber attacks and the access to personnel 
records, the computers of all of us--all of these render us 
susceptible to this sort of influence campaigns, correct?
    Mr. Watts. Yes. Americans need to understand that anything 
they do on the computer can be public at some point.
    Senator Cornyn. And just because it appears on the computer 
doesn't necessarily mean it's true?
    Mr. Watts. Correct. Fact and fiction have been wildly 
blurred over the past few years.
    Senator Cornyn. Regarding the last election and Putin's 
active measures effort, is it reasonable to conclude that any 
efforts made to weaken the candidacy of Hillary Clinton by 
doing damage to her reputation, credibility, and political 
standing would have been a desirable outcome for Russia even if 
she were elected President?
    Mr. Watts. Yes. The goal was either to get your candidate 
elected that you approve of or to just totally discredit and 
undermine the mandate of whoever does win should it be your 
opponent.
    Senator Cornyn. Mr. Rumer.
    Dr. Rumer. Yes, sir, I agree.
    Senator Cornyn. So do we have any reason to believe that 
Putin knew more than the pundits and pollsters did here in 
America about the outcome of the election before it occurred?
    Mr. Watts. No.
    Senator Cornyn. The electoral result is what I'm referring 
to. I didn't think so.
    Dr. Godson, you mentioned earlier, and I believe several of 
you alluded to this--about a strategic approach to 
countermeasures. Would you briefly describe what some of those 
might be? And I would like to have a more extended conversation 
at some point about what each of you would recommend for the 
United States Government to do to engage in a strategic 
approach of countermeasures to this sort of campaign.
    Dr. Godson.
    Dr. Godson. Well, we have had a historical precedent for 
developing that strategic approach. This is actually what 
happened in the Reagan years, that we decided that there was a 
major active measures offensive, much higher than people had 
expected, and we had to respond. So there were a couple of 
things that were done then which seemed to be quite effective 
and I would recommend we take those things that worked and put 
them into our strategic approach.
    Senator Cornyn. Could you give us a few examples?
    Dr. Godson. Yes. One is what we're sort of starting to do 
now and what you're starting to do, is educating the American 
and other populations about the threat of active measures and 
the price one can pay for successful active measures, so that 
when they know and hear about it they're not taken by it, it 
doesn't influence them. One is education.
    A second capability that we would need would be ways of 
reducing the effectiveness of the active measures: warning, 
anticipating, education, and then what can be done to reduce 
the effectiveness of the active measures? One of the things 
that worked in the past was exposing the perpetrators of the 
active measures, preferably in real time, but anyway exposure.
    Senator Cornyn. As Mr. Watts pointed out, the advent of 
social media and the use of social media to move fake stories 
around the internet and to get mainstream media to pay 
attention to them, and without authenticating the source of the 
information, then repeating it, successfully amplifying that 
message, strikes me as a huge challenge.
    All of us have run for elections and had to deal with the 
changes in the way we communicate with each other. It is a huge 
challenge. I don't know how we get to the bottom of this and 
find some site, some trusted site, government or otherwise, 
that says this is the truth, this is not the truth, don't 
believe what you're being told.
    Dr. Godson. Senator, we did have some good experience with 
it. We didn't have the machines. They didn't have those 
capabilities, the mechanical capabilities. But we still were 
able to discredit a lot of their active measures and the 
apparatus, and so it was effective for a while.
    The third part of this, though, really the hard part, is 
what kind of whole-of-government responses are we going to 
develop to actually deal with the problem? We sort of have to 
come to grips with this. As I said, this may not be the only 
committee that has to deal with this. But we have to say, what 
are we willing to tolerate? Are there any red lines for us, 
that if they go over this line then there will be these kinds 
of responses?
    We developed this kind of deterrence policy. We have rules 
of the road in deterrence so both sides don't get too close to 
each other on the nuclear weapons issues. But we're going to 
have to start to figure out what it is we're going to do and 
what we're going to accept and what we're going to tolerate and 
what kinds of responses we're going to have, not just once in a 
while, but consistently in this arena. I thank you for the 
question.
    Senator Cornyn. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you, and I want to thank the Chairman 
and Vice Chairman for this open hearing. As this committee 
conducts its investigation into Russia's interference with our 
2016 United States election, the American people need to fully 
understand the threat that we face and what we must do to 
protect ourselves in the future.
    Let's all be clear about what happened. We know, as has 
already been determined by the CIA, the FBI, and the NSA, a 
foreign country, Russia, attacked the heart of our democracy, 
an American election for the President of the United States. 
And they can and will do so again if we do not act urgently.
    We must get to the bottom of this. We must be thorough. We 
must proceed with urgency. And we must be transparent. That is 
vital to protect the public's trust in us and it's what the 
American people deserve. I know we can do so while protecting 
classified sources and material items that must remain 
classified in order to protect our national security, the 
sources of our intelligence, and the sensitive methods by which 
we collect it.
    This hearing is a first step to understand Russia's 
interference, but it cannot end here. We must build on today's 
hearing with future open hearings as much as possible. I 
strongly believe an informed public is one of our best weapons 
against future attacks.
    That being said, I have a question for all of you, and I'll 
start with Mr. Watts. Earlier this week, former Vice President 
Cheney said Russia's interference in our election should be 
considered an act of war. Assuming this was an act of war, 
Russia is investing in cyber weapons and cyber soldiers, which 
we call trolls, while we continue to invest in conventional 
weapons. As we invest in fighter jets and aircraft carriers, 
Russia is investing in state-run media from which it can push 
out fake news.
    As we consider investing more than $600 billion in our 
defense budget, Russia has approximately one-tenth of that 
amount in their budget and is developing its cyber warfare 
capabilities. I strongly believe cyber may be the new frontier 
of war.
    So my question to you is: Was this an act of war and are we 
prepared for this new form of warfare? And equally important, 
given the everyday challenges of Americans in their everyday 
lives, why should they be concerned about this?
    Mr. Watts. On the first part, an act of war, on the scale 
of warfare, it's not kinetic, but it's definitely part of the 
Cold War system that we knew 20, 30 years ago. Americans should 
be concerned because right now a foreign country, whether they 
realize it or not, is pitting them against their neighbor, 
other political parties, ramping up divisions based on things 
that aren't true.
    They're trying to break down the trust they have in you as 
a Senator, the Congress, the legislature, the court system. 
They're trying to break down all faith in those institutions. 
And if they can do that, if Americans don't believe that their 
vote counts, they're not going to show up to participate in 
democracy. If they don't believe that what they're doing is 
part of a government system that actually represents them, 
they're not going to go to jury duty. If they don't believe in 
those institutions, everything breaks down, and when that 
breakdown occurs we are focusing internally and Russia is 
focused externally, achieving their goals.
    In terms of investments, part of the reason we don't invest 
well in cyber and we don't invest in information is because 
we're not buying big pieces of equipment. If you can't buy a 
big piece of equipment, then it's really hard to invest your 
dollars. We need to invest in people. The reason Russians win 
in cyber and information space is they have great propagandists 
and they have the best hackers that are out there, that they 
can either enlist because they're criminals and sort of bring 
them under the umbrella or train themselves.
    We, on the other hand, worry a lot about who we're going to 
bring into the cyber field because they might have smoked weed 
one day or they can't pass the security clearance or they 
didn't get a score on their ASVAB, but there's millions, I mean 
millions, of talented Americans out there that can support 
these roles inside our government. We need to invest in humans 
moving forward in this space.
    It's hard to get Americans to understand that or even the 
Department of Defense, because you're talking about cyber and 
computers and so you think of tech. But the truth is that tech 
only works if you've got the smartest brains behind it. We do, 
but we don't put them against our fight.
    Senator Harris. Thank you.
    Dr. Rumer.
    Dr. Rumer. I think we should be careful using terms such as 
``an act of war.'' It's definitely the continuation of warfare 
by other means, but when you declare something to be an act of 
war it calls for certain responses that we may not be ready to 
take on.
    I do agree with Mr. Watts on the need to be much more 
creative, much more resourceful, in the way we approach the 
question of, quote, ``cyber warfare.'' I again would caution 
that the Russians have a very different standard here in using 
their offensive tools than we use in using our cyber tools with 
a great deal of responsibility, and I think we should be very 
careful not to cross certain lines.
    We should, however, be using the tools that are available 
to us and platforms that are available to us just from a 
somewhat different domain. I think that our own spokesmen, our 
own information projected and delivered from our platforms, 
should be the gold standard of accuracy and objectivity. So 
from that standpoint, let me just say that we're not using, for 
example, the platform of the State Department effectively. The 
practice of not sustaining our regular briefings for the media 
for the world is something that only hurts our interests.
    Senator Harris. Thank you.
    Dr. Godson. I agree with my colleagues, so I won't repeat 
the same conclusions they reached. I would, though, like to 
introduce the idea that cyber is now important. Cyber wasn't 
considered so important 20 years ago, now considered important. 
But there are other technologies coming on board now. Some are 
visible to us. Some, they're not very salient; they haven't 
risen above the horizon.
    There are a whole number of technologies that are not 
internet-dependent. As we look at active measures now and into 
the future, I would think that would be on the agenda. I'll 
give you just one example--virtual reality. Anybody who can set 
up the reality is going to have a very decided advantage in 
politics and other areas.
    So as we are looking at cyber--and you are going to have 
this hearing and other studies on this--I would say just that 
we should be broadening the concept of technologies that are 
going to be available, coming online, and it would be extremely 
unlikely that the Russians would ignore those technologies. So 
maybe that would be something to add to the already busy agenda 
that you have.
    Thank you.
    Senator Harris. Thank you.
    Chairman Burr. Thank you, Senator.
    Thank you to all of our witnesses. All the questions have 
been asked except for mine. So let me, if I could, spend just a 
couple of minutes. I agree with you, Dr. Godson, the ability to 
impersonate online is the next phase that we will go through. I 
think it's safe to say we don't have our best and brightest yet 
focused on that. We're still trying to triage what happened to 
us versus to be creative and look forward and say what could 
happen.
    Mr. Watts, I heard you talk about intent and specifically 
the intent of the Russians and their effectiveness and how pre-
planning played a large part of the 2016 effort. Here's my 
disconnect, is that when you--at least on the surface, as we've 
gotten into the investigation, as you look at the emails that 
were captured either out of the DNC or out of the Podesta 
account that were then the source of Russia's effort through 
WikiLeaks to publicly lay this out, that seemed to be an 
average, ordinary Russian fishing expedition, that we captured 
maybe 3,000 efforts at the same period in time.
    So are you suggesting that they had an effort to mess with 
the elections and just happened to be lucky enough to stumble 
across a volume of emails?
    Mr. Watts. They go widespread. Whatever the best nuggets 
that come out of that is what they run with. They hit a gold 
mine and they were able to successfully find the ammunition 
they wanted. What you see in other cases is they do compromise 
other accounts--I'm not going to talk about them; I don't want 
to amplify them--but they're less successful. You know, we'll 
hear a dump and you'll be like, oh, this isn't really anything 
other than what I expected a politician to say.
    So they hit a whale whenever they went fishing. But I would 
also say that somewhere in their cache right now there is 
tremendous amounts of information laying around they can 
weaponize against other Americans.
    Chairman Burr. We would agree with you on that.
    Very quickly, as you sort of summarized how fake news and 
how coordinated social media efforts push stories to the top 
ten and they get picked up automatically, what is the takeaway 
for U.S. media outlets from what you just said?
    Mr. Watts. They have to improve their editorial processes 
and they also have to take a step back from the ``I gotta get 
it out first'' competitive environment. Part of the reason this 
Russian system works is every outlet races to get the story out 
first. When they do that, they put themselves at risk to fall 
for these sorts of schemes. Until they improve that or until 
they collectively, we have some sort of standard that either 
the public or the media holds itself to, we're going to keep 
seeing them fall for these campaigns, whether it's Russia, by 
the way, or others. You're going to see many other nations take 
this on now that the playbook's been thrown out there.
    Chairman Burr. Dr. Rumer, would you like to take the 
opportunity to address in greater detail what the Russians are 
doing in the French and German elections?
    Dr. Rumer. Well, sir, there's a wide effort in the German 
election to build up the far-right party, Alternative for 
Germany, AfG, to use them as sort of a credible challenger to 
Chancellor Angela Merkel. There are countless stories that are 
being spread through fake news sites and media about the 
failures of Chancellor Merkel. They, as others have pointed 
out, have exploited the story about the girl that was not 
raped, but to again discredit her in the eyes of the general 
public so as to point out her failure to protect Germany 
against the flood of refugees. That's one of their major policy 
initiatives that she took when the Syria crisis broke out.
    In the French election, we just saw something that really 
was staggering and that is President Putin hosted in the 
Kremlin the leading far-right candidate and, almost with a 
smirk, said that: ``We don't interfere in French elections, but 
we have the right to engage any candidate in the public domain 
in that contest.''
    Also, Russian disinformation sources have spread malicious 
stories about one of the leading candidates, Emmanuel Macron, 
about his personal life.
    Chairman Burr. For the first time, we're really beginning 
to see an effort to build up and to absolutely destroy the 
character of others, having a double impact potentially on the 
outcome of the election?
    Dr. Rumer. Yes, sir.
    Chairman Burr. Dr. Godson, just quickly, how did we respond 
differently when we overcame these active measures by Russians 
pre-1980? And is there a lesson for us to learn from that in 
our actions now?
    Dr. Godson. I think there are a number of lessons, but one 
was this exposure business, that we learned how to put out 
information to the public domain that not only was relevant for 
Americans, but for foreigners. And we briefed that and we 
developed teams that could go out and talk about these things 
and so neutralize a lot.
    That was one of the methods that we could replicate. A 
second was support to elements abroad who are trying to 
maintain the democratic process. We developed some capabilities 
to do that. We still have some. One of the outstanding examples 
is the National Endowment for Democracy--bipartisan, able to do 
quite a lot, but it also limited in various ways. So one could 
look back to see how we were able to do this in different ways 
abroad that had an effect in the past. It's not that expensive 
financially and those methods are available.
    Chairman Burr. Thank you.
    Mr. Watts, just very briefly, has anybody taken you up on 
your list of recommendations?
    Mr. Watts. No.
    Chairman Burr. That did not go unnoticed by the committee. 
I want you to know that. Nor did the comment that there was 
agreement on at the table, that America's response to date has 
been woefully short of what it should be; if anything, it 
should be interpreted, and probably was interpreted, by the 
Russians that they can double down and in fact do it unscathed.
    So Mr. Watts, we heard you when you said fact and fiction 
had become wildly blurred. Let me just assure you that this 
committee's mission every day is to do the oversight on the 
intelligence community, 17 agencies, that assures the American 
people we do everything within the letter of the law. We first 
assure that to 85 other members of the Senate. So when it came 
time for a look inside what Russia active measures did and what 
our response was and how our intelligence community came to the 
assessments that they did, this fell right in our wheelhouse.
    This is what our professional staff does on a daily basis. 
This is a little more granular than what we do. It will take 
some time and it means triaging a tremendous amount of 
documents.
    But I also heard from all three of you that if there was 
ever a time to get it right, it's now. We have methodically 
built a process that builds a foundation of fact, to build an 
investigation on that foundation that can hopefully come to a 
bipartisan finding where the conclusions are matched with the 
facts that we find.
    In some cases, as all three of you know, that might be 
intelligence product that can't be made public. But in every 
place that we can, I have pledged to the Vice Chairman and he 
has pledged to his members and I have pledged to mine, where we 
can make it public so that the American people understand it 
and feel that this has been credible and thorough and that the 
conclusions are valid, we're going to try to do that.
    But I also believe that the American people expect us to 
protect sources and methods. They expect us to work with the 
intelligence community in a way that strengthens what they do 
and how they do it, not by sharing that with everybody, but by 
certifying that they're doing it within the letter of the law 
to keep America safe.
    I look at this investigation as one extension of that and 
it's to once again certify to the American people what we've 
done has been thorough, to hopefully provide some actionable 
conclusions for this Administration, and to look back on the 
work that we do and believe that in 2018 and 2020 we're going 
to be less concerned with Russia's involvement in our elections 
and that the United States of America should, like we do on 
terrorism, work with any country in the world that might be the 
target of an aggressor like Vladimir Putin.
    So I'm grateful to you for what you've contributed to our 
investigation.
    This hearing is now adjourned.
    [Whereupon, at 12:31 p.m., the hearing was adjourned.]
  

                                  [all]
</pre></body></html>
